App. 1
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------------------------------

No. 18-50977
-----------------------------------------------------------------------

GERARDO SERRANO,
Plaintiff—Appellant,
versus
CUSTOMS AND BORDER PATROL, U.S. CUSTOMS AND
BORDER PROTECTION; UNITED STATES OF AMERICA;
JOHN DOE 1-X; JUAN ESPINOZA; KEVIN MCALEENAN,
Defendants—Appellees.
----------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Western District of Texas
USDC No. 2:17-CV-48
----------------------------------------------------------------------------------------------------------------

Before CLEMENT, HIGGINSON, and ENGELHARDT, Circuit Judges.
PER CURIAM:
Gerardo Serrano ﬁled suit against the United
States Customs and Border Protection (CBP) and related parties, alleging constitutional violations after
his truck and its contents were seized at the United
States-Mexico border. Serrano sought the return of his
property pursuant to Federal Rule of Criminal Procedure 41(g), as well as damages under Bivens v. Six

App. 2
Unknown Named Agents, 403 U.S. 388 (1971), alleging
violations of his Fourth and Fifth Amendment rights.
Additionally, Serrano asserted a purported class-wide
due process claim against the United States, CBP, and
the CBP Commissioner, seeking declaratory and injunctive relief, directing CBP to provide prompt postseizure hearings when seizing vehicles for civil forfeiture. The district court granted defendants’ motions to
dismiss and denied as moot Serrano’s motion to certify
the class.
On appeal, Serrano contends that the district
court erred in dismissing his complaint and should be
reversed for three reasons: Serrano argues (1) he
properly stated a class claim that defendants must provide prompt, post-seizure hearings when they take
property for civil forfeiture based on Mathews v. Eldridge, 424 U.S. 319 (1976); (2) he properly stated a
class claim that it is unconstitutional to condition a forfeiture hearing on the property owner posting a bond;
and (3) he claims he has a cause of action for damages
under Bivens because his claims do not arise in a new
context, nor are there factors counselling against allowing his damages claims to proceed. For the reasons
stated herein, we AFFIRM the judgment of the district
court.1

1

Appellees assert that Serrano’s class claims were mooted
by the return of his property. We disagree. In Zeidman v. J. Ray
McDermott & Co., this court extended the concept of relation back
in holding that “a suit brought as a class action should not be dismissed for mootness upon tender to the named plaintiffs of their
personal claims, at least when . . . there is pending before the

App. 3
I.
On September 21, 2015, Gerardo Serrano, a U.S.
citizen and resident of Tyner, Kentucky, was driving
his 2014 Ford F-250 pickup truck to Mexico to meet
with his cousin when he was stopped at the Eagle Pass,
Texas, Port of Entry.2 While still in the United States,
Serrano began to take pictures of the border crossing
with his cell phone.
Two CBP agents objected to Serrano photographing the border facility and, after stopping his
truck, physically removed him from it, took possession
of his phone, and repeatedly demanded the password
to unlock his phone. Invoking his constitutional rights,
Serrano refused to provide the password to his phone.
The agents searched his vehicle, ﬁnding a .380 caliber
magazine and ﬁve .380 caliber bullets in the truck’s
center console.3
The agents handcuffed Serrano and detained him
for several hours, consistently attempting to obtain the
password for his phone without success. Serrano explained that he was not aware that the bullets and
district court a timely ﬁled and diligently pursued motion for class
certiﬁcation.” 651 F.2d 1030, 1051 (5th Cir. 1981); see also Fontenot v. McCraw, 777 F.3d 741, 750 (5th Cir. 2015) (stating that
Genesis Healthcare Corp. v. Symcyzk, 569 U.S. 66 (2013), “does
not foreclose the broader Zeidman approach to the relation back
doctrine”).
2
Because Serrano’s claims were dismissed on the pleadings,
the alleged underlying facts are taken as true.
3
Serrano has a valid concealed carry permit issued by his
home state of Kentucky.

App. 4
magazine were in the truck. As he had not yet crossed
into Mexico, Serrano offered to turn around and leave
the border facility or leave the magazine and low-caliber bullets at the border facility. After being detained
for about three hours, Serrano was released, but CBP
agents seized his vehicle and its contents, including
the magazine and the bullets. Serrano left the detention facility on foot.
On October 1, 2015, CBP mailed Serrano a notice
of seizure, informing him that the truck, magazine, and
bullets were seized and subject to forfeiture because
there was probable cause to believe that Serrano had
attempted to export “munitions of war” from the
United States.4 The notice advised Serrano of the options that were available to him concerning the seizure: (1) ﬁle a remission petition; (2) submit an “offer
in compromise” and include a check of the proposed
settlement amount along with the offer; (3) abandon
any interest in the property; (4) request court action
and have his case referred to the U.S. Attorney for institution of judicial forfeiture proceedings; (5) do
4

The notice stated that the “property was seized and is subject to forfeiture under the provisions of [19 U.S.C. § 1595a(d), 22
U.S.C. § 401, 22 U.S.C. § 2778, and 22 C.F.R. Part 127.1.]” According to 19 U.S.C. § 1595a(d), merchandise attempted to be exported from the United States contrary to law, and property used
to facilitate the exporting, shall be seized and forfeited to the
United States. The other provisions cited in the notice are as follows: 22 U.S.C. § 401 (providing for seizure and forfeiture of illegally exported war materials and vehicles used to attempt to
export such articles); 22 U.S.C. § 2778 (control of arms exports
and imports); and 22 C.F.R. § 127.1 (violations for illegal exports
from the United States).

App. 5
nothing; or (6) offer to substitute release of the seized
property on payment.
If Serrano chose to have his case referred to the
U.S. Attorney (option 4), the notice stated that he must
submit to CBP at the address provided a claim and
“cost bond in the penal sum of $5,000 or 10 percent of
the value of the claimed property, whichever is less, but
in no case shall the amount of the bond be less than
$250.00.”5 Under this “court action” option, the notice
further advised:
If you ﬁle the claim and bond, the case will be
referred promptly to the appropriate U.S. Attorney for the institution of judicial proceedings in Federal court to forfeit the seized
property in accordance with 19 U.S.C. § 1608
and 19 C.F.R. § 162.47. You may then ﬁle a petition for relief with the Department of Justice
pursuant to Title 28, Code of Federal Register,
Part 9 (28 C.F.R. Pt. 9). Failure to submit a
bond with the claim will render the request
for judicial proceedings incomplete, and therefore, defective. This means that the case will
NOT be referred to the appropriate U.S. Attorney.

5

As explained in the notice, if the claimant could not afford
to post the bond, he should contact the Fines, Penalties & Forfeitures Ofﬁcer so that CBP can make a determination of claimant’s
ﬁnancial ability to pay the bond. “If a determination of inability
to pay is made, the cost of the bond may be waived in its entirety.”
Serrano does not allege in his complaint either that he applied for
the waiver of the bond or that he was unreasonably denied a
waiver.

App. 6
On October 22, 2015, Serrano responded to the notice by letter, demanding the immediate return of his
truck or a hearing in court. Along with the letter, he
sent a check for $3,804.99 to satisfy the bond requirement. According to Serrano’s bank records, CBP
promptly deposited the check on or about October 30,
2015.
On four separate occasions, Serrano called defendant Juan Espinoza, a paralegal at CBP and the primary point of contact identiﬁed in the notice of seizure,
to inquire about the status of his case. During one of
these calls, Espinoza told Serrano that his case was
taking so long because he had requested to see a judge.
Espinoza also informed Serrano that he would have to
wait for his case to be referred to an available Assistant United States Attorney.
On December 19, 2016, Serrano submitted a Freedom of Information Act request to CBP asking for information about the seizure and forfeiture of his truck.
As of the date of the ﬁling of the complaint, CBP had
not responded. For 23 months, defendants failed to institute forfeiture proceedings and Serrano was deprived of his property without a hearing to challenge
the seizure or the continued retention of his vehicle.6

6

Serrano alleges that the truck was held at a CBP seizure
lot. While seized, he continued to make monthly loan payments of
$672.97, as well as insurance and registration payments for a
truck that he could not drive. Serrano also spent thousands of dollars on rental cars.

App. 7
On September 6, 2017, Serrano ﬁled a complaint
for return of property, compensatory damages, and
class-wide injunctive and declaratory relief, naming as
defendants the U.S. Customs and Border Protection
(CBP), the United States, Kevin McAleenan7 in his ofﬁcial capacity as the Acting Commissioner of CBP,
Juan Espinoza in his individual capacity, and John Doe
1-X (unidentiﬁed responsible CBP agents). Serrano
sought the return of his “truck and all its contents, his
magazine, ﬁve bullets, and the $3,804.99 that he
posted as bond” under Federal Rule of Criminal Procedure 41(g), alleging that the seizure and continued retention of his property violated his Fourth and Fifth
Amendment rights (Count I). Serrano also asserted an
individual Bivens claim for damages against Espinoza
and other unknown and unserved agents acting in
their individual capacities for the violation of his
Fourth (Count II) and Fifth (Count III) Amendment
rights. Additionally, Serrano sought injunctive and declaratory relief on behalf of a putative class against
CBP’s policy or practice of holding seized vehicles without providing a prompt, post-seizure forfeiture hearing, in violation of the class’s due-process rights (Count
IV). Serrano simultaneously moved to certify a class
consisting of “all U.S. Citizens whose vehicles are or
will be seized by CBP for civil forfeiture and held without a post-seizure hearing.”

7

On July 7, 2019, Mark A. Morgan was appointed to serve
as Acting Commissioner of U.S. Customs and Border Protection.
Under Federal Rule of Appellate Procedure 43(c), Acting Commissioner Morgan is automatically substituted as a party.

App. 8
The following month, on October 19, 2017, CBP returned Serrano’s truck. However, the remainder of Serrano’s property was not returned for several more
months: Serrano ﬁled a notice on February 26, 2018,
notifying the court that his $3,804.99 in bond money
had been returned and another notice on May 29, 2018,
that his seized bullets and magazine were returned
“without apology or explanation.”8
On December 13, 2017, defendants United States,
CBP, and the CBP Commissioner (Class Defendants)
moved to dismiss Serrano’s individual and class claims
as moot and for failure to state a claim, arguing that
the claims are moot because Serrano’s property was returned, and, in any event, due process does not require
a post-seizure hearing. Class Defendants also ﬁled a
response in opposition to the motion to certify. The
same day, Espinoza ﬁled a Rule 12(b)(6) motion to dismiss Serrano’s Bivens claim, seeking dismissal because Serrano failed to allege a viable Bivens claim
under existing law and contending that no Bivens
claim is available in this new context.9 See Fed. R. Civ.
P. 12(b)(6). Alternatively, Espinoza argued that he is

8

Ultimately, Serrano was never charged with a crime and
his property was returned prior to forfeiture proceedings.
9
The motion to dismiss was ﬁled on behalf of defendant Juan
Espinoza, but noted: “The John Doe defendants have not been
identiﬁed by Plaintiff, nor have they been served. Because this
motion raises threshold defenses relating to Plaintiff ’s ability to
state a Bivens claim against Defendant Juan Espinoza, it is likely
that a ruling for Espinoza would also entitle the unidentiﬁed John
Doe Defendants to a judgment in their favor.”

App. 9
entitled to qualiﬁed immunity because he did not violate any clearly established constitutional right.
Serrano conceded that the return of his property
mooted his individual claim for return of property
(Count I), but otherwise opposed both motions to dismiss.
On July 23, 2018, the magistrate judge issued a
report and recommendation. The magistrate judge concluded that Serrano’s remaining claims were not moot,
but recommended dismissal because Serrano failed to
state a claim upon which relief could be granted. Serrano ﬁled written objections to the report and recommendation.
On September 28, 2018, after de novo review of the
report’s factual ﬁndings and legal conclusions, the district court overruled Serrano’s objections and adopted
the magistrate judge’s recommendations based on reasons it provided in its order. The district court dismissed Serrano’s class-wide and individual claims
under Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim upon which relief could be granted.
In dismissing Serrano’s class claims, the district court
reasoned: “Because this Court ﬁnds a weighing of the
Mathews factors indicates that due process does not require a prompt post-seizure, pre-forfeiture hearing, the
Plaintiff has failed to state a claim for which relief can
be granted.”
Additionally, the district court dismissed Serrano’s
Bivens claims. The district court concluded that both
of Serrano’s claims (under the Fourth and Fifth

App. 10
Amendments) arise in a “new context” that is signiﬁcantly different from any of the three Bivens claims the
Supreme Court has recognized in the past. The district
court further concluded that special factors counseled
against expanding the Bivens remedy in this case. The
district court explained that the remedial forfeiture
scheme under the customs laws is analogous to the
statutory schemes that the Supreme Court found preclusive of a judicially created Bivens remedy in Bush v.
Lucas, 462 U.S. 367 (1983), and Schweiker v. Chilicky,
487 U.S. 412 (1988).
Serrano timely appealed. On appeal, Serrano contends that the district court erred in dismissing his
complaint and should be reversed for three reasons: (1)
he “properly stated a class claim that Defendants must
provide prompt, post-seizure hearings when they take
property for civil forfeiture” based on Mathews, 424
U.S. at 319; (2) he “properly stated a class claim that it
is unconstitutional to condition a forfeiture hearing on
the property owner posting a bond;” and (3) he has a
cause of action for damages under Bivens, 403 U.S. at
388, because his claims do not arise in a new context,
nor are there factors counselling against allowing his
damages claims to proceed.
II.
We review a district court’s dismissal under Federal Rule of Civil Procedure 12(b)(6) de novo, “accepting all well-pleaded facts as true and viewing those
facts in the light most favorable to the plaintiff.” Stokes
v. Gann, 498 F.3d 483, 484 (5th Cir. 2007). “To survive

App. 11
a motion to dismiss, a complaint must contain sufﬁcient factual matter, accepted as true, ‘to state a claim
to relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Id.
While the factual allegations need not be detailed,
they must be enough to raise a right to relief above the
speculative level. Twombly, 550 U.S. at 555. “The
court’s review is limited to the complaint, any documents attached to the complaint, and any documents
attached to the motion to dismiss that are central to
the claim and referenced by the complaint.” Lone Star
Fund V (U.S.), L.P. v. Barclays Bank PLC, 594 F.3d 383,
387 (5th Cir. 2010).
III.
Due Process Claims
The main focus of Serrano’s due process challenge
is to the Government’s continued retention of seized
property without a prompt judicial hearing to determine whether the government can retain possession of
the seized property pending judicial forfeiture proceedings. Because he claims the district court erred in concluding that CBP’s practices do not violate due process
as a matter of law, Serrano maintains that the district
court erred both in dismissing Count IV for failure to

App. 12
state a claim and denying as moot his motion for class
certiﬁcation. Contrary to the district court’s ﬁnding,
Serrano argues that due process requires a prompt,
post-seizure hearing as evidenced by a “long line of authority requiring prompt hearings to contest even temporary deprivations of property” and a proper weighing
of the Mathews v. Eldridge due process factors.
The Due Process Clause of the Fifth Amendment
guarantees that “[n]o person shall be . . . deprived of
life, liberty, or property, without due process of law.”
U.S. CONST. amend. V. “The essence of due process is
the requirement that a person in jeopardy of serious
loss (be given) notice of the case against him and opportunity to meet it.” Mathews, 424 U.S. at 348–49
(quoting Joint Anti-Fascist Comm. v. McGrath, 341 U.S.
123, 171–72 (Frankfurter, J., concurring)). “[D]ue
process is ﬂexible and calls [only] for such procedural
protections as the particular situation demands.” Morrissey v. Brewer, 408 U.S. 471, 481 (1972). As the Supreme Court explained in Mathews, in identifying the
“speciﬁc dictates of due process,” courts must consider
three factors: (1) “the private interest that will be
affected by the ofﬁcial action;” (2) “the risk of an erroneous deprivation of such interest through the procedures used, and the probable value, if any, of additional
or substitute procedural safeguards;” and (3) “the Government’s interest, including the function involved
and the ﬁscal and administrative burdens that the

App. 13
additional or substitute procedural requirement would
entail.”10 424 U.S. at 335.
The first factor we consider in the Mathews analysis is “the private interest that will be affected by the
ofﬁcial action.” Id. “The deprivation of real or personal
property involves substantial due process interests.”
Krimstock v. Kelly, 306 F.3d 40, 61 (2d Cir. 2002) (Sotomayor, J.) (citing United States v. James Daniel Good
Real Prop., 510 U.S. 43, 53–54 (1993)).11 An individual
has an important interest in the possession of his or
her motor vehicle, particularly because of its “use as a
mode of transportation, and, for some, the means to
earn a livelihood.” Id. Because the seizure of a vehicle
implicates an important private interest, the main
points of contention are with respect to the balancing
of the second and third Mathews factors.

10

As the district court noted, Serrano’s asserted class claims
argue that due process requires a prompt, post-seizure hearing in
a court of law to determine whether the Government can retain
possession of the seized property pending judicial forfeiture proceedings. Importantly, Serrano does not challenge the validity of
the initial seizure nor does he allege that the administrative delays in referring his case to the United States Attorney in this
instance violate due process. See United States v. Eight Thousand
Eight Hundred and Fifty Dollars ($8,850) in U.S. Currency, 461
U.S. 555, 564 (1983) (applying the speedy trial balancing test
identiﬁed in Barker v. Wingo, 407 U.S. 514 (1972), to determine
whether the Government’s delay in ﬁling a forfeiture action was
reasonable). Accordingly, both parties’ arguments focus on the application of the Mathews factors.
11
Good involved the seizure of real property. Property that
is capable of being moved and concealed involves different concerns from the forfeiture of real property. See 510 U.S. at 52–53.

App. 14
Under the second Mathews factor, we consider
“the risk of erroneous deprivation of such interest
through the procedures used, and the probable value,
if any, of additional or substitute procedural safeguards.” Mathews, 424 U.S. at 335. Serrano disagrees
with the district court’s ﬁnding that the federal scheme
at issue affords multiple alternative remedial processes, lowering the risk of erroneous deprivation. To
the contrary, Serrano asserts that CBP’s forfeiture procedures create a high risk of erroneous deprivation because none of the processes available afford property
owners the protection of a neutral decision maker, as
required by due process.
The risk is minimal under the second Mathews
factor when we consider the remedial procedures
available that permit a claimant to contest the deprivation of his vehicle. Cf. United States v. One 1971
BMW 4-Door Sedan, 652 F.2d 817, 820 (9th Cir. 1981)
(“The pervasive statutory scheme . . . evidences substantial concern on the part of Congress with respect
to what process is due owners of vehicles seized under
the narcotics laws and regulations. Great weight must
be given to its judgment.” (citing Mathews, 424 U.S. at
349)). Under the current customs laws, if the value of
the seized property is below $500,000, CBP sends written notice to each party that has an interest in the
claim or seized property.12 19 U.S.C. § 1607; 19 C.F.R.
12

The notice identiﬁes, among other things, the provisions of
law alleged to have been violated, a description of the speciﬁc acts
or omission alleged, and additional details about the seized property.

App. 15
§ 162.31. The notice informs the claimant of a number
of available options to address the seized property,
which include ﬁling a petition for remission; ﬁling an
offer in compromise; abandoning the property; or requesting the matter be referred to the U.S. Attorney for
institution of judicial forfeiture proceedings.
A petition for remission offers an expedited administrative procedure to contest the forfeiture.
See United States v. Von Neumann, 474 U.S. 242, 250
(1986) (“Remission proceedings supply both the Government and the claimant a way to resolve a dispute
informally rather than in judicial forfeiture proceedings.”). “The purpose of the remission statutes is to
grant the executive the power to ameliorate the potential harshness of forfeitures.” In re Sixty Seven Thousand Four Hundred Seventy Dollars, 901 F.2d 1540,
1543 (11th Cir. 1990).
In the petition for remission, the claimant has an
opportunity to explain why he believes he warrants relief from forfeiture. Notably, testimony may be taken in
connection with a remission petition. 19 U.S.C. § 1618.
Serrano’s notice of seizure states that if he is dissatisﬁed with the petition decision or at any point prior to
the forfeiture of the property, he may request a referral
to the U.S. Attorney for judicial action by ﬁling a
claim and cost bond. In the past, the statutory administrative remission procedure was a popular and effective tool for obtaining the return of property. See
Von Neumann, 474 U.S. at 249 n.8 (In “90% of all seizures, the claimant ﬁles a petition for remission or

App. 16
mitigation,” and at least partial relief was granted in
an estimated 75% of the petitions).
Further, the fourth option, which Serrano selected,
allows for an independent evaluation and determination by the U.S. Attorney regarding forfeiture proceedings. If the claimant elects this proceeding and
properly ﬁles a claim and bond,13 the notice states that
the “case will be referred promptly to the appropriate
U.S. Attorney for the institution of forfeiture proceedings.”14 See 19 U.S.C. § 1603(b) (requiring a “customs
ofﬁcer to report promptly [a] seizure [made for violation of customs laws] . . . to the United States attorney
for the district in which such violation has occurred, or
in which such seizure was made”); see also 19 U.S.C.
§ 1604 (“It shall be the duty of the Attorney General of
the United States immediately to inquire into the facts
of cases reported to him by customs ofﬁcers and the
laws applicable thereto, and if it appears probable . . .
to cause the proper proceedings to be commenced and
prosecuted, without delay, for the recovery of such ﬁne,
penalty, or forfeiture.”). Thus, referral may result in

13

Recall that the statute provides for a potential waiver of
the bond in its entirety.
14
"Since October of 1978 the constitutional requirement of
promptness has been incorporated into the Customs statutes.”
United States v. One 1976 Mercedes 450 SLC, 667 F.2d 1171, 1175
n.3 (5th Cir. Unit B 1982). The parties agree that the processing
timeline provisions of the Civil Asset Forfeiture Reform Act of
2000 (CAFRA) are not applicable to the challenged forfeiture proceeding. See 18 U.S.C. § 983(i)(2)(A).]

App. 17
return of the property and any bond without further
delay.
Indeed, Serrano concedes that the forfeiture proceeding itself would provide the post-seizure hearing
required by due process if it were held promptly. An
unreasonably long retention without instituting a forfeiture proceeding can constitute a denial of due process. See, e.g., United States v. $23,407.69 in U.S.
Currency, 715 F.2d 162, 165–66 (5th Cir. 1983). In the
event there is a prolonged delay in initiating forfeiture
proceedings, a claimant can challenge the reasonableness of the delay under Barker. See United States v.
Eight Thousand Eight Hundred and Fifty Dollars
($8,850) in U.S. Currency, 461 U.S. 555, 564 (1983) (applying the four-factor balancing test of Barker, to determine whether the Government’s delay in ﬁling a
forfeiture action was reasonable); see also Shults v.
Texas, 762 F.2d 449, 453 (5th Cir. 1985) (considering
$8,850 the “seminal case” addressing “whether a delay
in a post-seizure hearing offended the Fifth Amendment right against deprivation of property without due
process of law”).
Importantly, as is evidenced in this case, the property owner may ﬁle a motion under Federal Rule of
Criminal Procedure 41(g) for the return of seized property.15 See United States v. Sims, 376 F.3d 705, 708 (7th
15

Federal Rule of Criminal Procedure 41(g), formerly Rule
41(e), provides:
A person aggrieved by an unlawful search and seizure
of property or by the deprivation of property may move
for the property’s return. The motion must be ﬁled in

App. 18
Cir. 2004); cf. Krimstock, 306 F.3d at 52 n.12 (distinguishing forfeiture under the customs law and noting
that under the customs law applicable in Von Neumann, the claimant could ﬁle a motion under Federal
Rule of Criminal Procedure 41(g) “for return of the
seized vehicle if he or she ‘believe[d] the initial seizure
was improper’” (quoting Von Neumann, 474 U.S. at 244
n.3) (brackets in Krimstock)). Although a Rule 41(g)
motion is generally available in the context of an ongoing criminal proceeding, the court can properly construe it as a civil complaint under the court’s general
equity jurisdiction. See, e.g., Bailey v. United States,
508 F.3d 736, 738 (5th Cir. 2007); United States v. Robinson, 434 F.3d 357, 361 (5th Cir. 2005); accord United
States v. Craig, 694 F.3d 509, 512 (3d Cir. 2012); United
States v. Search of Music City Mktg., Inc., 212 F.3d 920,
923 (6th Cir. 2000); Floyd v. United States, 860 F.2d
999, 1002–03, 1006–07 (10th Cir. 1988). Thus, Rule
41(g) provides an additional avenue to challenge the
seizure before a neutral decision maker and is “an action frequently taken to force the government agency
to act expeditiously.” Muhammed v. Drug Enf ’t Agency,
Asset Forfeiture Unit, 92 F.3d 648, 651–52 (8th Cir.
1996). Serrano argues that Rule 41(g) is insufﬁcient to
protect the interest of his purported class because it
only allows the movant to challenge the legality of the
the district where the property was seized. The court
must receive evidence on any factual issue necessary to
decide the motion. If it grants the motion, the court
must return the property to the movant, but may impose reasonable conditions to protect access to the
property and its use in later proceedings.

App. 19
underlying seizure, not the interim retention of the
property pending judicial proceedings. But the availability of a prompt merits determination minimizes any
need for an interim hearing.
In assessing the risk of erroneous deprivation, we
consider the agency’s pecuniary interest in the outcome of the forfeiture proceedings. As observed by the
Supreme Court, greater procedural safeguards are “of
particular importance . . . where the Government has
a direct pecuniary interest in the outcome of the proceeding.” Good, 510 U.S. at 55–56. Serrano alleges that
CBP retains forfeited property or its proceeds to fund
its law-enforcement operations, giving the agency and
its ofﬁcers a direct ﬁnancial stake in seizing and forfeiting property. However, taking these allegations as
true, the option to elect judicial forfeiture proceedings
and/or ﬁle a Rule 41(g) motion in district court are existing safeguards to counter CBP’s alleged interest in
forfeiture proceeds.
Given the remedial processes available, the second
Mathews factor weighs in favor of the Government.
Finally, the third factor under Mathews requires a
consideration of “the Government’s interest, including
the function involved and the ﬁscal and administrative
burdens that the additional or substitute procedural
requirement would entail.” Mathews, 424 U.S. at 335.
Serrano disagrees with the weight the district court attributed to the third factor, based on its conclusion that
the Government has an important interest in enforcing customs laws and the potential administrative

App. 20
burden that providing prompt hearings would place on
the Government.
The third factor weighs in favor of the Government. We cannot ignore the context of the underlying
seizure. The Government’s interest in preventing the
unlawful exportation of munitions, drugs, and other
contraband is signiﬁcant. See, e.g., Hernandez v. Mesa,
140 S. Ct. 735, 746 (2020) (“One of the ways in which
the Executive protects this country is by attempting to
control the movement of people and goods across the
border.”); Lee v. Thornton, 538 F.2d 27, 31 (2d Cir. 1976)
(“There is an extremely important government interest in policing the passage of persons and articles into
the country across its borders.”). Further, Serrano’s
property was subject to forfeiture because the agents
believed that the truck was used in an attempt to illegally export munitions from the United States, in violation of federal law.16 The Government’s retention
protects its interest in the seized vehicle. Additionally,
a signiﬁcant administrative burden would be placed on
the Government if it was required to provide prompt
post-seizure hearings in every vehicle seizure.
Given the broad allegations in the complaint and
our balancing of the Mathews factors, we conclude that
Serrano has failed to state a claim for a procedural due
process violation. As identiﬁed in the CBP’s seizure
16

There is no dispute that Serrano’s vehicle contained the
magazine and bullets when he attempted to exit the United
States and enter Mexico. Nor does Serrano dispute that the seizure was pursuant to a statutory grant of authority under the
customs laws.

App. 21
notice, a claimant is notiﬁed of the seizure and provided options for challenging the CBP’s action, both administratively and judicially. Serrano has not
sufﬁciently alleged the constitutional inadequacy of
the existing procedures, nor has he shown that the
available processes are unavailable or patently inadequate.
Moreover, our conclusion that the additional process Serrano seeks is not constitutionally required in
this context is consistent with Von Neumann. There,
the Supreme Court recognized that “implicit” in its
“discussion of timeliness in $8,850 was the view that
the forfeiture proceeding, without more, provides the
postseizure hearing required by due process to protect
[claimant’s] property interest in the car.” 474 U.S. at
249 (emphasis added). The parties dispute the relevance of Von Neumann. Compare Red Br. 22 (Von Neumann forecloses plaintiff ’s argument) with Reply Br.
13 (“[A]s the district court correctly recognized, Von
Neumann does not govern [Serrano’s] claim.”). We
agree that Von Neumann is not dispositive of Serrano’s
due process challenge; however, the Court’s reasoning
is pertinent to our due process analysis.
Von Neumann speciﬁcally notes that a claimant’s
“right to a forfeiture proceeding meeting the Barker17
17

The Supreme Court in $8,850 and Von Neumann applied
the Barker test to a due process challenge to the Government’s
delay in instituting a civil forfeiture proceeding. Barker v. Wingo,
407 U.S. 514 (1972), which addressed a defendant’s right to a
speedy trial, propounded a four-part test to be used as a guide “in
balancing the interests of the claimant and the Government to

App. 22
test satisﬁes any due process right with respect to the
car and the money.” Von Neumann, 474 U.S. at 251; see
also Gonzales v. Rivkind, 858 F.2d 657, 661–62 (11th
Cir. 1988); LKQ Corp. v. U.S. Dep’t of Homeland Sec.,
369 F. Supp. 3d 577, 589–90 (D. Del. 2019). And neither
the Supreme Court nor the Fifth Circuit has held that
the Due Process Clause requires an additional postseizure, pre-forfeiture judicial hearing.
Moreover, the cases Serrano cites do not dictate a
different result under Mathews. Serrano primarily relies on the Second Circuit’s decision in Krimstock, 306
F.3d at 40, to support his position that a prompt, postseizure hearing is constitutionally required while
awaiting the forfeiture hearing.18 In Krimstock, plaintiffs challenged the constitutionality of the seizure and
retention of motor vehicles under the city’s Civil Administrative Code, a forfeiture statute that permitted,
on the basis of a ﬁrst offense, seizure of “a motor vehicle following an arrest for the state-law charge of driving while intoxicated . . . or any other crime for which
the vehicle could serve as an instrumentality.” 306 F.3d
assess whether the basic due process requirement of fairness has
been satisﬁed in a particular case.” $8,850, 461 U.S. at 565.
Courts have expressed confusion about whether to analyze a due
process challenge to a forfeiture procedure under Barker or
Mathews. See, e.g., Ford Motor Credit Co. v. NYC Police Dep’t.,
503 F.3d 186, 194 (2d Cir. 2007). We agree with the parties that
Mathews is more applicable here because the harm alleged is the
lack of an interim hearing rather than delay preceding an ultimate hearing on the merits.
18
Unlike $8,850 and Von Neumann, Krimstock analyzed a
forfeiture due process challenge under the Mathews factors.

App. 23
at 44. Having identiﬁed special due process concerns
and applying the three Mathews factors, the court in
Krimstock concluded that the New York administrative code provisions at issue did not pass constitutional
muster. Id. at 67.
Krimstock does not constrain our balancing of the
Mathews factors in this case. Of particular importance,
Krimstock is limited to the speciﬁc New York City statute at issue, which is materially distinguishable from
the forfeiture scheme Serrano challenges.19 “[D]ue
19

Applying the three Mathews factors, the court in Krimstock concluded that the New York administrative code provisions
at issue did not pass constitutional muster because they failed to
include a provision for a prompt post-seizure, prejudgment hearing before a neutral judicial or administrative ofﬁcer to determine
whether the city was likely to succeed on the merits of the forfeiture action and whether means short of retention of the vehicle
could satisfy the city’s need to preserve it from destruction or sale
during the pendency of proceedings. 306 F.3d 40 (2d Cir. 2002).
In Ferrari v. County of Suffolk, a man had his vehicle seized in
connection with his arrest for driving while intoxicated, pursuant
to the county’s DWI seizure statute. 845 F.3d 46, 49, 59 n.18 (2d
Cir. 2016). Our sister circuit held that a district court erred in
concluding that Krimstock prevented a county or municipality
from relying on public safety concerns as the basis for retention
pendente lite, and that the Due Process Clause of the Fourteenth
Amendment permitted the county, after making out a prima facie
case that retention was necessary to protect its interests, to shift
the burden of going forward onto the title owner to identify an
alternative measure that satisﬁed the municipality’s interests.
Id. The New York forfeiture statutes in Ferrari and Krimstock are
materially distinguishable from the forfeiture scheme in the present case. The statute in Ferrari permitted forfeiture only when
the vehicle was an instrumentality of a speciﬁcally enumerated,
serious crime, and the driver involved had at least one prior conviction for such a crime. Id. at 49. The statute was “aimed

App. 24
process is ﬂexible and calls for such procedural protections as the particular situation demands.” Morrissey,
408 U.S. at 481.
Accordingly, Serrano’s complaint fails to state a
claim upon which relief can be granted.
Serrano also alleges that it is unconstitutional
to condition a forfeiture hearing on the property owner posting a bond
As a threshold matter, Serrano failed to object to
the magistrate judge’s ﬁndings with regard to his class
claims challenging the bond requirement to institute
judicial forfeiture proceedings. Reviewing for clear error, the district court found none and adopted the magistrate judge’s report in full. [Id.] Because Serrano
failed to object, our review is limited to plain error.
Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415,
1429 (5th Cir. 1996) (en banc), superseded by statute on
other grounds, 28 U.S.C. § 636(b)(1).
The district court did not plainly err in holding
that Serrano failed to state a claim that the bond requirement violates due process. See Faldraga v.
Carnes, 674 F. Supp. 845, 850 (S.D. Fla. 1987); see also
Brown v. Dist. of Columbia, 115 F. Supp. 3d 56, 72
(D.D.C. 2015). Claimants who elect to judicially challenge the forfeiture are generally required to post a
speciﬁcally at repeat offenders of New York’s drunk driving laws,”
and afforded owners a prompt, post-seizure hearing to determine
if the county may retain the vehicle (unavailable with the statute
at issue in Krimstock). Id. at 50.

App. 25
cost bond in the penal sum of $5,000 or 10 percent of
the value of the claimed property, whichever is less, but
in no case shall the amount of the bond be less than
$250. 19 U.S.C. § 1608.
The bond serves to “deter those claimants with
frivolous claims” and “to cover the costs and expenses
of the proceedings.” Arango v. U.S. Dep’t of the Treasury, 115 F.3d 922, 925 (11th Cir. 1997) (quotations
omitted). “If the outcome of the judicial proceeding is
in the claimant’s favor, the bond is returned.” Id. (citation omitted). Additionally, to ensure that the bond requirement does not deny indigent claimants an
opportunity to contest the forfeiture in court, CBP provides by regulation that the bond requirement shall be
waived “upon satisfactory proof of ﬁnancial inability to
post the bond.” 19 C.F.R. § 162.47(e). The notice of seizure explicitly advises the claimant that if he cannot
afford to post the bond, he should contact the Fines,
Penalties and Forfeitures Ofﬁcer in order for CBP to
determine claimant’s ﬁnancial ability to pay: “If a determination of inability to pay is made, the cost of the
bond may be waived in its entirety."20 Thus, the district
court did not err in dismissing the claim.
Because we afﬁrm the district court’s dismissal
under Rule 12(b)(6) of Serrano’s due process class
claims for failure to state a claim, we also afﬁrm the
denial of his motion for class certiﬁcation as moot.

20

Serrano has not requested such a waiver, nor does he contend that he was or is unable to afford the bond payment.

App. 26
Bivens Claim
Serrano additionally argues that dismissal was inappropriate because he properly asserted an individual claim for damages under Bivens to vindicate his
Fourth and Fifth Amendment rights.
In Bivens, the Supreme Court “broke new ground
by holding that a person claiming to be the victim of
an unlawful arrest and search could bring a Fourth
Amendment claim for damages against the responsible
agents even though no federal statute authorized such
a claim.” Hernandez, 140 S. Ct. at 741 (citing Bivens,
403 U.S. at 388). This holding was issued at a time
when, “as a routine matter,” the Court “would imply
causes of action not explicit in the statutory text” on
the assumption that courts could properly “provide
such remedies as [were] necessary to make effective”
the statute’s purpose. Ziglar v. Abbasi, 137 S. Ct. 1843,
1855 (2017) (quoting J.I. Case Co. v. Borak, 377 U.S.
426, 433 (1964)). The Supreme Court has since adopted
a more cautious approach, honoring separation-ofpowers principles and stressing that whether a damages remedy should be created requires consideration
of “a number of economic and governmental concerns.”
Id. at 1856. Because of these considerations, Congress
is “better position[ed]” than the judiciary “to consider
if the public interest would be served by imposing a
new substantive legal liability.” Id. at 1857 (quoting
Schweiker, 487 U.S. at 426–427). “The Court has made
clear that expanding the Bivens remedy is now a ‘disfavored’ judicial activity.” Id. (quoting Iqbal, 556 U.S.
at 675).

App. 27
Assuming without deciding that a Bivens remedy
is available in this context, Serrano’s complaint fails to
state a claim. Serrano’s Bivens claims are premised on
the theory that unnamed CBP ofﬁcers and a CBP paralegal, Espinoza, violated his constitutional rights by
seizing his truck and keeping it for 23 months without
giving him an opportunity to contest the seizure in a
post-seizure judicial hearing.
At minimum, Serrano failed to plausibly allege
that any individual federal defendant has violated
clearly established law sufﬁcient to overcome qualiﬁed
immunity. Qualiﬁed immunity shields government ofﬁcials from “liability for civil damages insofar as their
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” Pearson v. Callahan, 555 U.S. 223,
231 (2009) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818 (1982)). In order for an ofﬁcial to lose the protections of qualiﬁed immunity, “existing precedent must
have placed the statutory or constitutional question
beyond debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741
(2011). The Supreme Court has held that “qualiﬁed immunity protects ‘all but the plainly incompetent or
those who knowingly violate the law.’” Abbasi, 137
S. Ct. at 1867 (quoting Malley v. Briggs, 475 U.S. 335,
341 (1986)). “[I]f a reasonable ofﬁcer might not have
known for certain that the conduct was unlawful—
then the ofﬁcer is immune from liability.” Id.
Espinoza is entitled to qualiﬁed immunity. Serrano fails to set forth any facts speciﬁcally identifying
what Espinoza or any unnamed Customs ofﬁcers did

App. 28
to violate his rights. Instead, Serrano admits that the
defendants acted within their authority: Serrano “alleges that the government followed the relevant statutes but that the statutes themselves violate the
Constitution.” In other words, Serrano concedes that
the individual defendants were following the relevant
statutes governing the seizure of his truck. Even if we
assume that the Constitution required CBP’s employees to follow additional or more expedited procedures,
there is no existing precedent clearly establishing as
much, and thus, the individual defendants are entitled
to qualiﬁed immunity. See Kelm v. Hyatt, 44 F.3d 415,
421 (6th Cir. 1995); CHS Indus., LLC v. U.S. Customs
& Border Prot., 653 F. Supp. 2d 50, 57 (D.D.C. 2009).
IV.
For these reasons, we AFFIRM the judgment of
the district court.

App. 29
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
DEL RIO DIVISION
§
§
§
v.
§ Cause No. DR-17§ CV-00048-AM
U.S. CUSTOMS AND
§
BORDER PROTECTION;
§
UNITED STATES OF
§
AMERICA, KEVIN
§
McALEENAN, Acting
§
Commissioner of U.S.
§
Customs and Border
§
Protection, Sued in His
§
Ofﬁcial Capacity; JUAN
§
ESPINOZA, Fines, Penalties, and Forfeiture Parale- §
gal Specialist, Sued in His §
Individual Capacity; JOHN §
§
DOE I-X, Unknown U.S.
Customs and Border Pro- §
§
tection Agents, Sued in
their Individual Capacities, §
§
JUAN ESPINOZA,
§
Defendants.
GERARDO SERRANO,
Plaintiff,

ORDER
(Filed Sep. 28, 2018)
Pending before the Court is the Report and Recommendation of the Honorable Collis White, United
States Magistrate Judge. (ECF No. 64.) In his report,

App. 30
Judge White recommends that this Court deny the
Plaintiffs Motion to Certify Class (ECF No. 4); grant
the Motion to Dismiss ﬁled by Defendants United
States of America, U.S. Customs and Border Protection, and Kevin McAleenan (ECF No. 49); and grant
the Motion to Dismiss ﬁled by Defendant Juan Espinoza (ECF No. 50). The Plaintiff ﬁled his objections to
Judge White’s report within the fourteen days speciﬁed
in Rule 72 of the Federal Rules of Civil Procedure.
(ECF No. 65.) The Court OVERRULES the Plaintiffs
objections and ADOPTS Judge White’s overall recommendations for the reasoning described herein.
I.

BACKGROUND

On September 21, 2015, the Plaintiff, a resident of
Kentucky, drove his 2014 Ford F-250 truck to the
United States–Mexico border through Eagle Pass,
Texas, with the intent of driving to Mexico. (ECF No. 1
at 4, 6.) After paying the toll to enter Mexico, but while
still in the United States, the Plaintiff began using his
cellular telephone to ﬁlm activity at the border, which
garnered the attention of the U.S. Customs and Border
Protection (CBP) agents on duty. (Id.) After a tense encounter, the agents handcuffed the Plaintiff and
searched his vehicle, ﬁnding a .380 caliber magazine
and ﬁve bullets in it. (Id at 7–8.) The agents detained
the Plaintiff for several hours, continuously pressuring
him to reveal the passcode for his phone without success. (Id. at 8–10.) They then released him, but seized
his vehicle and its contents, including the magazine
and the bullets. (Id. at 10.)

App. 31
A few days later, the Plaintiff received notice of the
seizure in the mail, informing him that the truck, magazine, and bullets were seized and subject to civil forfeiture because there was probable cause to believe
that the Plaintiff had attempted to export munitions of
war from the United States.1 (Id. at 11; ECF No. 55–2
at 2.2) The Plaintiff was informed that if he wished to
challenge the seizure, he could request to have the
matter referred to a U.S. attorney for the institution of
judicial proceedings if he posted a bond equal to ten
percent of the value of the seized property. (ECF No. 1
at 11.) The notice also informed the Plaintiff of his
rights to seek remission of the forfeiture, make an offer
in compromise, or abandon the property. (ECF No. 55–
2 at 3–4.)

1

The parties acknowledge that it is proper for the Court to
consider the notice in a motion to dismiss without converting the
motion to one for summary judgment because the notice was referred to in the Complaint and it is central to the Plaintiff ’s
claims. Collins v. Morgan Stanley Dean Witter, 224 F.3d 496, 498–
99 (5th Cir. 2000) (“We note, approvingly, however, that various
other circuits have speciﬁcally allowed that ‘[d]ocuments that a
defendant attaches to a motion to dismiss are considered part of
the pleadings if they are referred to in the plaintiff ’s complaint
and are central to her claim.’”) (quoting Venture Assocs. Corp. v.
Zenith Data Sys. Corp, 987 F.2d 429, 431 (7th Cir. 1993)).
2
The notice cites to 19 U.S.C. § 1595a(d) (merchandise attempted to be exported from the United States contrary to law,
and property used to facilitate the exporting, shall be seized and
forfeited to the United States); 22 U.S.C. § 401 (providing for seizure and forfeiture of illegally exported war materials and vehicles used to attempt to export such articles); 22 U.S.C. § 2778
(control of arms exports and imports); and 22 C.F.R. § 127.1 (violations for illegal exports from the United States).

App. 32
The Plaintiff timely demanded forfeiture proceedings and posted a ten-percent bond in the amount of
$3,804.99. (ECF No. 1 at 11.) After some time, forfeiture proceedings still had not been instituted, so the
Plaintiff contacted Defendant Espinoza—a CBP paralegal and the point person named in the notice —four
times, asking about the status of his case. Id. Espinoza
informed the Plaintiff that his paperwork was in order,
but it would take time to proceed with the forfeiture
action in court because the forfeiture attorneys were
very busy. (Id. at 11–12.) Espinoza also allegedly told
the Plaintiff that his case had not yet been referred to
a U.S. attorney and would not be until an attorney had
time to review it. Id. at 12.
After twenty-three months of waiting, without (1)
the return of his property; (2) a post-seizure hearing,
or (3) the institution of a forfeiture action, the Plaintiff
ﬁled the present cause of action against the United
States, seeking return of his property pursuant to Rule
41(g) of the Federal Rules of Criminal Procedure based
on violations of the Fourth and Fifth Amendments. The
Plaintiff argues that return of his property is proper
because he was not provided with a post-seizure hearing and because the United States waited too long to
institute forfeiture proceedings. (Id. at 20–21.) The
Plaintiff also argues that his bond money must be returned because the requirement to post a bond as a
condition of obtaining a hearing violates due process.
(Id.)

App. 33
The Plaintiff also brings two class action claims
pursuant to Rule 23 of the Federal Rules of Civil Procedure, seeking class-wide injunctive and declaratory
relief under the Fifth Amendment against Defendants
United States of America, U.S. Customs and Border
Protection, and Acting Commissioner McAleenan, in
his ofﬁcial capacity (Class Defendants). (Id. at 23.) According to the Plaintiff, after seizing vehicles, the Class
Defendants fail to provide a constitutionally required
prompt post-seizure hearing at which a property
owner can challenge the legality of the seizure and the
continued retention of the property pending the forfeiture proceeding, in contravention of Krimstock v. Kelly,
306 F.3d 40 (2nd Cir. 2002). (Id.) The Plaintiff also alleges that the Class Defendants violate due process
when they condition the right to a forfeiture hearing
on the posting of a bond. (Id) Simultaneously with his
Complaint, the Plaintiff also ﬁled his Motion to Certify
the Class. (ECF No. 4.)
Finally, the Plaintiff seeks damages from Defendant Espinoza and other unknown and unserved agents
acting in their individual capacities, pursuant to
Bivens v. Six Unknown Named Agents, 403 U.S. 388
(1971), for violations of his Fourth and Fifth Amendment rights. (ECF No. 1 at 21–23.) The Plaintiff argues
that Espinoza deprived him of his constitutional right
to a post-seizure hearing, and other unknown agents
violated his rights by maintaining custody of his property even though no hearing was provided. (Id.) According to the Plaintiff, while his truck was seized, he
had to rent a vehicle on multiple occasions, pay

App. 34
insurance on the truck, and pay title fees, all while his
vehicle sat unused, continuing to depreciate in value.
The Plaintiff ’s truck was returned to him shortly
after he ﬁled this lawsuit; however, at the time, the
bond money, magazine, or bullets still had not been returned. (ECF No. 49–1.) The Class Defendants then
ﬁled a motion to dismiss, in which they argue that the
return of the Plaintiff ’s truck moots any cause of action
under Rule 41(g). (ECF No. 49 at 4–5.) The Class Defendants also argued that due process does not require
a post-seizure hearing. (Id. at 6.) In response the motion for class certiﬁcation, the Class Defendants argue
that certiﬁcation is improper because the matter is
now moot following the return of the Plaintiff ’s vehicle.
(ECF No. 51.)
Defendant Espinoza also ﬁled a motion to dismiss
based on two grounds. (ECF No. 50.) First, Defendant
Espinoza argues that the Supreme Court has never
recognized a Bivens cause of action in the asset forfeiture context, and it would be improper to extend
Bivens to the facts alleged here. Second, Defendant Espinoza argues that he is entitled to qualiﬁed immunity
because he did not violate any clearly established constitutional right.
Subsequently, the Plaintiff ’s bond money, magazine, and bullets were returned. (ECF Nos. 62–63.)
Thus, Plaintiff now acknowledges that his Rule 41(g)
motion is moot. (ECF No. 63 at 1.) Nevertheless, the
Plaintiff maintains that his class action claims and his
Bivens actions are not moot. (Id. at 2.)

App. 35
II.

STANDARD OF REVIEW

When a party ﬁles an objection to any portion of a
magistrate judge’s report and recommendation, the
district court must undertake a de novo review of the
conclusions to which the party properly objects. Fed. R.
Civ. P. 72(b)(3) (“The district judge must determine de
novo any part of the magistrate judge’s disposition that
has been properly objected to.”); 28 U.S.C. § 636(b)(1)
(“A judge of the court shall make a de novo determination of those portions of the report or speciﬁed ﬁndings
or recommendations to which objection is made.”). In
conducting a de novo review, a district court must conduct its own analysis of the applicable facts and legal
standards and is not required to give any deference to
the magistrate judge’s ﬁndings. See United States v.
Raddatz, 447 U.S. 667, 690 (1980) (“The phrase ‘de
novo determination’ has an accepted meaning in the
law. It means an independent determination of a controversy that accords no deference to any prior resolution of the same controversy.”); Shiimi v. Asherton
Indep. Sch. Dist., No. 92-5562, 1993 WL 4732, at *2
n.18 (5th Cir. Jan. 8, 1993) (stating that a de novo review “means that the district court independently reviews the matters in the record”). On the other hand,
the Fifth Circuit has recognized the requirement that
parties ﬁling objections must speciﬁcally identify those
ﬁndings objected to, and district courts need not conduct a de novo review when the objections are frivolous, conclusive, or general in nature. Battle v. United
States Parole Commission, 834 F.2d 419, 421 (5th Cir.
1987).

App. 36
When no party ﬁles objections to a part of a magistrate judge’s report and recommendation, the district
court need only review that portion of the report to determine whether it is erroneous or clearly contrary to
law. Douglas v. United Servs. Automobile Ass’n, 79 F.3d
1415, 1429 (5th Cir. 1996); United States v. Wilson, 864
F.2d 1219, 1221 (5th Cir. 1989). Because the Plaintiff
has timely ﬁled objections in this case, the Court will
review those portions of the report to which the Plaintiff objects de novo.
Here, the Plaintiff has asserted numerous objections, thus triggering a de novo review of those factual
ﬁndings and legal conclusions contained within the report.
III.

DISCUSSION

The Plaintiff objects to the report’s factual ﬁndings and legal conclusions with respect to the following: (1) Judge White’s analysis, but not his overall
conclusion, in ﬁnding that the Plaintiff ’s class claims
fall under the “inherently transitory” exception to class
action mootness; (2) Judge White’s recommendation
that the Plaintiff has failed to state a claim with respect to the class defendants; (3) Judge White’s recommendation that the Plaintiff ’s Motion for Class
Certiﬁcation should be dismissed; and (4) Judge
White’s recommendation that the Individual Defendants’ Motion to Dismiss should be granted. The Plaintiff ’s objections are overruled.

App. 37
A. Class Action Claims under the Fifth
Amendment
Judge White ﬁrst addressed the Plaintiff ’s class
action claims brought on behalf of himself and others
similarly situated. Judge White summarized the
Plaintiff ’s class claims as follows: (1) the Class Defendants’ failure to provide a prompt post-seizure, preforfeiture hearing after every vehicle seizure violates
the Due Process Clause of the Fifth Amendment; and
(2) that the requirement of a bond in order to initiate
forfeiture proceedings similarly violates due process.
(ECF No. 64 at 6.)
The Plaintiff seeks to proceed on behalf of a class
of all U.S. citizens, likely hundreds a year, “whose vehicles are or will be seized by CBP for civil forfeiture
and held without a post-seizure hearing.” (ECF No. 1
at 23.) The Plaintiff seeks declaratory and injunctive
relief, including (1) a declaration that the Class Defendants’ “policy or practice of failing to provide
prompt post-seizure hearings to U.S. citizens whose vehicles have been seized for civil forfeiture” is unconstitutional under the Due Process Clause of the Fifth
Amendment, and (2) an injunction prohibiting Class
Defendants “from continuing to seize vehicles from
U.S. citizens for civil forfeiture without providing a
prompt post-seizure hearing.” (Id. at 25.)
The Class Defendants, in turn, have ﬁled (1) a motion to dismiss these claims (ECF No. 49), and (2) a response in opposition to the motion to certify (ECF No.
51), arguing that the claims are moot because the

App. 38
Plaintiff ’s property has been returned, and, in any
event, due process does not require a post-seizure hearing.
Judge White found that the Plaintiff ’s class-wide
claim falls within the “inherently transitory” exception
to class mootness despite the fact that all of his property has now been returned to him; however, Judge
White nonetheless recommended that the Plaintiff ’s
class-wide claim should be dismissed because it fails
on the merits. (ECF No. 64 at 8–9, 14–23.)
1. Inherently Transitory Exception to Mootness
In a footnote, the Plaintiff “agrees with [Judge
White’s] bottom-line conclusion that the class claims
are not moot,” but “does object to a portion of the Report’s reasoning in reaching that conclusion.” (ECF No.
65 at 3 n.1.) Speciﬁcally, the Plaintiff argues, the classwide claims fell within the “inherently transitory” exception to class mootness both because (1) the claims
naturally become moot whenever the seizure ends or a
hearing is provided, and (2) the Government has the
ability to “pick off ” named plaintiffs by voluntarily returning their property. The Plaintiff argues that both
the exceptions apply and objects that Judge White’s report “endorses the second of these two rationales, but
. . . could be read to reject the ﬁrst.” (Id.)
In Genesis Healthcare Corp. v. Symczyk, 569 U.S.
66, 75–77 (2013), the Supreme Court discussed the inherently transitory exception to mootness in class actions, which in turn has its roots in Sosna v. Iowa, 419

App. 39
U.S. 393 (1975). In Sosna, the Court held that a class
action is not rendered moot when the named plaintiff ’s
individual claim becomes moot after the class has been
duly certiﬁed. 419 U.S. at 399. However, Sosna also
suggested that, where a named plaintiff ’s individual
claim becomes moot before the district court has an opportunity to rule on the certiﬁcation motion and the
issue would otherwise evade review, the certiﬁcation
might “relate back” to the ﬁling of the complaint. Id. at
402 n.11. The Supreme Court “has since held that the
relation-back doctrine may apply in Rule 23 cases
where it is ‘certain that other persons similarly situated’ will continue to be subject to the challenged conduct and the claims raised are ‘so inherently transitory
that the trial court will not have even enough time to
rule on a motion for class certiﬁcation before the proposed representative’s individual interest expires.’”
Genesis Healthcare, 569 U.S. at 76 (quoting County of
Riverside v. McLaughlin, 500 U.S. 44, 52 (1991) (in turn
quoting United States Parole Comm’n v. Geraghty, 445
U.S. 388, 399 (1980) (in turn citing Gerstein v. Pugh,
420 U.S. 103, 110 n.11 (1975))). The “inherently transitory” rational was developed to address circumstances
in which the challenged conduct “was effectively unreviewable, because no plaintiff possessed a personal
stake in the suit long enough for litigation to run its
course.” Genesis Healthcare, 569 U.S. at 76. Where the
transitory nature of the conduct giving rise to the suit
would effectively insulate defendants’ conduct from review, class certiﬁcation could potentially “relate back”
to the ﬁling of the complaint. Id. To be sure, “this doctrine has invariably focused on the ﬂeeting nature of

App. 40
the challenged conduct giving rise to the claim, not on
the defendant’s litigation strategy.” Id. (internal citations omitted). Thus, for example, a plaintiff seeking to
bring a class action challenging the constitutionality of
temporary pretrial detentions “would face a considerable challenge of preserving his individual claim from
mootness, since pretrial custody likely would end prior
to the resolution of his claim.” Id. (internal citations
omitted).
In his report, Judge White explains that a previously decided Fifth Circuit decision, Zeidman v. McDermott & Co., 651 F.2d 1030, 1050–51 (5th Cir. Unit A
1981), extended the Sosna-created concept of relation
back under the inherently transitory doctrine to cases
that would otherwise be rendered moot by the defendants’ ability to “pick off ’ claims to prevent any plaintiff
in the class from procuring a decision on class certiﬁcation. Id. at 1050. Since then, the Fifth Circuit has
recognized that “[t]he current status of Zeidman may
be in doubt” in light of Genesis Healthcare. See Fontenot v. McCraw, 777 F.3d 741, 750–51 (5th Cir. 2015)
(noting that the Supreme Court’s rationale in Genesis
Healthcare undermined “Zeidman’s analogy between
the ‘inherently transitory’ exception to mootness and
the strategic ‘picking off ’ of named plaintiff ’s claims.”).
However, in that case the Fifth Circuit ultimately declined to decide whether Zeidman has in fact been
overruled. Id. Thus, Judge White found that Zeidman
remains technically binding precedent. (ECF No. 64 at
10 n.7.)

App. 41
Judge White therefore concludes that, while Plaintiff ’s class action claim does not present a classic inherently transitory exception to class action mootness,
the present scenario “falls squarely under Zeidman.”3
(ECF No. 64 at 9.) The Plaintiff ’s footnote objects to
Judge White’s ﬁnding that this is not a classic inherently transitory exception and, in support, refers this
Court to the decisions in Krimstock, 306 F.3d at 70
n.34, and Cty. of Riverside v. McLaughlin, 500 U.S. 44,
52 (1991). However, both of those cases were decided
prior to the Supreme Court’s clariﬁcation of the inherently transitory exception doctrine in Genesis
Healthcare and are otherwise distinguishable.
For example, in Krimstock, the Second Circuit
noted that three of the seven named plaintiffs had recovered their property by the time of oral arguments.
306 F.3d at 70 n.34. Accordingly, along with its decision
to remand the case, the Second Circuit instructed the
district court to consider whether exceptions to the
mootness doctrine preserved the merits of the case for
judicial resolution of the unnamed class members’
3

The Plaintiff ’s footnote objects to Judge White’s alleged suggestion that the rationale in Alvarez v. Smith, 558 U.S. 87, 92–93
(2009) forecloses the applicability of the classic inherently transitory doctrine to the instant case because the plaintiffs in that case
had abandoned their class actions claims following the district
court’s denial of certiﬁcation. See also (ECF No. 64 at 9 (“This is
not a classic inherently transitory situation under Alvarez.”).) The
Court agrees to the extent that Alvarez involved analysis of the
mootness of the named-plaintiffs’ individual claims, not their previously abandoned class-wide claims. However, read in context,
Judge White appears to be referring to the classic inherently transitory line of cases as outlined in Genesis Healthcare.

App. 42
claims. Id. at 70. The Krimstock footnote that the
Plaintiff cites simply refers the district court to the inherently transitory doctrine and the possibility that
“in some cases” the Supreme Court has held that the
termination of a class representative’s claim does not
moot the claims of the unnamed members of the class.
Id. at 70 n.34. The Second Circuit did not decide
whether the inherently transitory doctrine actually
applied under the circumstances in that case.
McLaughlin is also readily distinguishable.
McLaughlin involved a class action challenge to the
manner in which the County of Riverside, California
provided probable cause determinations to persons arrested without a warrant. McLaughlin, 500 U.S. at 47.
Citing the inherently transitory exception, the Supreme Court held that the class claims were not
mooted by the holding of probable cause determination
hearings or the release of the class members. Id. at 51–
52. Thus, the factual circumstances in McLaughlin appear to at least reasonably resemble the hypothetical
scenario that the Supreme Court would later use to
clarify the classic inherently transitory exception in
Genesis Healthcare.
Here, the Plaintiff has not persuaded this Court
that Judge White erred in his conclusion that the present scenario does not fall under the classic inherently
transitory doctrine based on Krimstock or McLaughlin,
particularly in light of the Supreme Court’s analysis in
Genesis Healthcare. For the classic inherently transitory exception to apply, the challenged conduct must be
effectively unreviewable due its ﬂeeting nature. The

App. 43
Plaintiff has failed to show that the Supreme Court’s
hypothetical constitutional challenge to temporary
pretrial detentions in Genesis Healthcare, where it is
likely that such detention will end prior to the resolution of any plaintiff ’s claim, is analogous to the claims
here involving the civil forfeiture of property, especially in light of the applicable ﬁve-year statute of limitations under the customs laws in this instance. See
19 U.S.C. § 1621.
The Plaintiff therefore has not persuaded this
Court that the proposed class claims are incapable of
review due to their alleged ﬂeeting nature as described
in Genesis Healthcare. Accordingly, this Court overrules Plaintiff ’s objection to Judge White’s analysis
that this case does not present a classic inherent transitory exception to mootness. As outlined above, the
Plaintiff does not, however, object to Judge White’s conclusion that the Plaintiff ’s class claim nevertheless
falls under Zeidman. Because no party has objected to
that ﬁnding, this Court reviews it for clear error. As
Judge White explained, the Fifth Circuit correctly
called Zeidman into question in light of Genesis
Healthcare, but Zeidman nevertheless remains binding precedent until it is expressly overruled. Thus, having reviewed Judge White’s analysis, especially in light
of the Plaintiff ’s agreement with Judge White’s conclusion, this Court overrules the Plaintiff ’s objections and
adopts Judge White’s ﬁnding that the Plaintiff ’s class
claims fall within the inherently transitory exception
under Zeidman.

App. 44
2. Class Defendants’ Motion to Dismiss Pursuant to Rule 12(b)(6)
The Plaintiff next objects to Judge White’s analysis that his class allegations fail to state a claim and
recommendation that the Class Defendants’ Motion to
Dismiss should be granted pursuant to Rule 12(b)(6).
(ECF No. 65 at 3–11.) The Plaintiff argues that Judge
White’s conclusion is based on the following three interconnected errors: (1) Judge White’s analysis disregards a series of cases holding that the Government
must provide a prompt-post seizure hearing when it
seizes vehicles for civil forfeiture; (2) Judge White
places undue weight on the Supreme Court’s decision
in United States v. Von Neumann, 474 U.S. 242 (1986);
and (3) Judge White errs in his due process analysis
under Mathews v. Eldridge, 424 U.S. 319 (1976) by underestimating the signiﬁcance of the private interest
at stake and the risk of erroneous deprivation, while
overstating the cost of providing a hearing.
a. The Plaintiff ’s Cited Cases do not Establish that CBP’s Failure to Provide a
Prompt Post-Seizure Hearing Violates Due
Process
The Plaintiff argues that Judge White’s analysis
errs by disregarding “numerous” federal cases holding
that due process requires a prompt post-seizure hearing when the government seizes vehicles for civil forfeiture. (ECF No. 65 at 4–5 (citing Krimstock, 306 F.3d
at 44; Smith v. City of Chicago, 524 F.3d 834, 838, vacated as moot, 558 U.S. 87 (2009); Washington v.

App. 45
Marion Cty. Prosecutor, 264 F. Supp. 3d 957, 978–79
(S.D. Ind. 2017); and Brown v. District of Columbia, 115
F. Supp. 3d 56, 60 (D.D.C. 2015).) The Plaintiff ’s objection is overruled.
Courts use the three-factor balancing test set out
by the Supreme Court in Mathews, 424 U.S. 319, to determine what procedures are required when the government seeks to take or retain a private interest. The
Mathews test weighs (1) the nature and weight of the
“private interest that will be affected by the ofﬁcial action”; (2) “the risk of an erroneous deprivation of such
interest through the procedures used, and the probable
value, if any, of additional or substitute procedural
safeguards;” and (3) “the Government’s interest, including the function involved and the ﬁscal and administrative burdens that the additional or substitute
procedure would entail.” Id. at 335.
Following his review of existing precedent, Judge
White found that “there is some support to the idea
that a prompt post-seizure hearing is required when
state, municipal, or district statutes allow for seizures
for violations of law, especially where seized property
is not subject to replevin.” (ECF No. 64 at 18.) However,
on balance, Judge White concluded that the Plaintiff
has not pointed to any case in support of the argument
that a hearing is required after a seizure under federal
law and, following a weighing of the Mathews factors,
that no prompt post-seizure hearing is required under
these circumstances. (Id. at 18–21.) The Plaintiff objects to Judge White’s distinction between the state,
municipal, or district statutes in the cases the Plaintiff

App. 46
cites and the federal laws at issue here. The Plaintiff
further notes that the Second Circuit’s analysis in
Krimstock—the decision on which his argument heavily relies —in turn relies on the Supreme Court’s decision in United States v. James Daniel Good Real
Property, 510 U.S. 43, 62 (1993), ﬁnding that the federal government must provide a hearing before it
seizes real property. Having reviewed the applicable
case law, this Court agrees with Judge White’s conclusion that the Plaintiff ’s citations do not sufﬁciently establish that a prompt post-seizure hearing is required
under these circumstances when considered alongside
existing precedent.
In Krimstock, the Second Circuit applied the
Mathews test in a constitutional challenge to a New
York law permitting police to seize vehicles following
drunk driving arrests. 306 F.3d at 46. Then-Judge Sotomayor wrote that the Mathews factors weighed in favor of the requirement of an early opportunity to
challenge the seizure and retention of their vehicles.
The Krimstock court placed great weight in the ﬁrst
factor, the owner’s interest in the property, because an
“‘individual has an important interest in the possession of his [or her] motor vehicle’” given the “particular
importance” that cars have “as a mode of transportation and, for some, the means to earn a livelihood.” Id.
at 61. (citing Lee v. Thornton, 538 F.2d 27, 31 (2nd Cir.
1976)). The court then found that the second factor, the
risk of erroneous deprivation, favored the city because
“a trained police ofﬁcer’s assessment of the owner-

App. 47
driver’s state of intoxication can typically be expected
to be accurate.” Id. at 62–63.
With respect to the third factor, the court found
that a weighing of the government’s interests favored
the car owners because “the need to prevent forfeitable
property from being sold or destroyed during the pendency of proceedings [did] not necessarily justify continued retention of all vehicles when other means of
accomplishing those goals are available.” Id. at 65. The
court suggested that the availability of alternative
measures, such as a bond, is “in some respects a
superior form of security” to satisfy the government’s
interest. Id. Moreover, the court discounted the government’s interest in maintaining possession of the res for
the purposes of establishing in rem jurisdiction in forfeiture proceedings because the government need only
maintain possession until the initiation of such proceedings. Id. The court also discounted the government’s interest in preventing the offending res—the
seized vehicles—from being used as instrumentalities
in future acts of driving while intoxicated. Id. at 66. In
doing so, the court reasoned that (1) the “offending res”
is only an allegedly offending res inasmuch as the alleged misconduct has yet to be established in a criminal or civil proceeding; (2) while the initial seizure
serves the constructive purpose of keeping an individual from driving in an inebriated condition, that purpose loses its basis in urgency once the individual has
regained sobriety; and (3) impoundment leaves the alleged offender free to drive while intoxicated in any
other vehicle when the opportunity presents itself,

App. 48
while depriving some potentially innocent owners of
the often indispensable beneﬁts of daily access to their
vehicles; and ﬁnally (4) the possibility, unique to the
factual circumstances of the case, that New York only
seized vehicles that might yield an attractive price at
auction. Id. at 66–67.
Following a review of the existing precedent, this
Court agrees with Judge White’s conclusion that the
Plaintiff has not demonstrated that Krimstock and its
progeny dictate the outcome of this Court’s own balancing of the Mathews factors under the factual circumstances presented in this case. With respect to the
ﬁrst Mathews factor, Judge White agreed with Krimstock and Brown in ﬁnding that the seizure of a vehicle
“unquestionably” implicates an important private interest in being able to travel and go to work. (ECF No.
64 at 20.) However, this Court’s review indicates that
other courts have readily arrived at different conclusions with respect to the Krimstock court’s balancing
of the second and third Mathews factors.
For example, in United States v. One 1971 BMW 4Door Sedan, the Ninth Circuit found that the applicable forfeiture procedures under the federal customs
laws “far better protected” vehicle owners’ rights
against the risk of erroneous seizure while distinguishing a prior decision involving a California state law because, under the customs laws, the U.S. Attorney had a
duty to investigate and make a determination, independent of the seizing agency, as to whether forfeiture
was warranted, and, in an event, the judicial hearing
to which the individuals were entitled served to assure

App. 49
the propriety of the forfeiture. 652 F.2d 817, 820–21
(9th Cir. 1981). The court added, “[t]he pervasive statutory scheme of which these sections are a part evidences substantial concern on the part of Congress
with respect to what process is due owners of vehicles
seized under the narcotics laws. Great weight must be
given to its judgment.” Id. at 820 (citing Mathews, 424
U.S. at 349). Those procedures prescribed by Congress
not only afforded the plaintiff the right to petition for
remission of the forfeiture, but further assured him the
right to judicial review of the forfeiture. Id. The Plaintiff here attempts to distinguish One 1971 BMW by
arguing that the customs laws have since been
amended to require additional administrative procedures for property valued at less than $500,000, which
includes his vehicle. (ECF No. 65 at 6 n.2 (citing § 19
U.S.C. §§ 1607, 1610).) However, as well-documented
throughout the brieﬁng in this case, under the current
customs laws applicable to the Plaintiff ’s property, he
similarly had the option to petition for remission of the
forfeiture, have his case submitted to the U.S. Attorney
for an independent evaluation, and ultimately judicial
review to determine whether the forfeiture was just.4
See One 1971 BMW, 652 F.2d at 820 (distinguishing
Lee v. Thornton, 538 F.2d 27 (2nd Cir. 1976)); cf.
4

The Court also notes that the Plaintiff ’s class claims argue
that due process requires the creation of a prompt post-seizure
hearing, not that the alleged administrative delays in referring
his case to the United States Attorney in this instance or the disposition of his judicial proceedings violate due process, which
would be governed by the speedy trial balancing test outlined in
Barker v. Wingo, 407 U.S. 514 (1972).

App. 50
Krimstock, 306 F.3d at 62 (ﬁnding factor weighed in
favor of government, but also stating “[n]either the arresting ofﬁcer’s unreviewed probable cause determination nor a court’s ruling in the distant future on the
merits of the City’s forfeiture claim can fully protect
against an erroneous deprivation . . . .”); Brown, 115
F. Supp. 3d at 67 (“validity of trafﬁc stops ‘rests solely
on the arresting ofﬁcer’s unreviewed probable cause
determination”). Put another way, Judge White was
correct in distinguishing the Plaintiff ’s cited cases because the federal scheme here afforded the Plaintiff
multiple alternative remedial processes that were not
present in the state schemes, which lowers the risk of
erroneous deprivation in this instance.
The Second Circuit’s ﬁndings in Krimstock with
respect to the weight accorded to the third factor, the
government’s interests, also depart from other courts’
analyses. For example, while Krimstock discounted the
government’s interest and effectiveness in preventing
future acts of driving while intoxicated, the court in
One 1971 BMW found that “[t]he interest in the appellant in the uninterrupted use of his vehicle is not so
compelling as to outweigh the substantial interest of
the government in controlling the narcotics trade without being hampered by costly and substantially redundant administrative burdens.” 652 F.2d at 821.
Likewise, the Supreme Court held in City of Los Angeles v. David, 538 U.S. 715, 718 (2003)—a case decided
after Krimstock that reversed a circuit court’s ruling
that an additional post-seizure hearing was required—
that the government’s interest weighs “strongly” in the

App. 51
city’s favor in recognition of the sheer burden that requiring prompt post-seizure hearings would place on
governments. See also United States v. $8,850 in U.S.
Currency, 461 U.S. 555 (1983) (noting that U.S. Customs processes over 50,000 noncontraband forfeitures
per year); cf. Brown, 115 F. Supp 3d at 67 (ﬁnding third
factor weighs in vehicle owners’ favor where “the government has not offered any evidence regarding the
potential administrative burden of providing prompt
hearings with respect to automobiles . . . .”). Just as the
Supreme Court recognized in David, Judge White did
not err in acknowledging the sheer administrative
burden that would fall on the government if it was required to provide prompt post-seizure hearings following every seizure.
For the reasons stated above, Judge White also
correctly found that a review of existing precedent does
not bind this Court, without further examination of the
circumstances presented in this case, to adopt the Second Circuit’s analysis of the Mathews factors in Krimstock and its progeny to ﬁnd that due process requires
a prompt post-seizure hearing. This Court agrees with
the Plaintiff to the extent that, whether the forfeiture
procedures in question arise from either federal law,
state law, municipalities, or district statutes, is not outcome determinative absent further inquiry into the
particular circumstances of a particular case. However,
Judge White correctly noted the distinction in the particular circumstances in cases arising under federal
laws, including the availability of alternate remedial
processes and the lack thereof in the cases that the

App. 52
Plaintiff relies on, which should be considered and
weighed accordingly in this Court’s balancing of the
Mathews factors.
The Plaintiff ’s argument that Judge White’s cited
cases are themselves distinguishable is also misplaced.
See (ECF No. 65 at 6.) One 1971 BMW held that the
appellant was not entitled to an additional hearing for
probable cause within 72 hours of a seizure, not that
one is required as the Plaintiff suggests. See 652 F.2d
at 820 (distinguishing Lee, which involved vehicles
seized at remote border points that were subject to
summary forfeiture and were not subject to independent review by the U.S. Attorney and ﬁnal judicial determination of forfeiture). Moreover, the Plaintiff ’s
argument that cases involving seizure of property
other than vehicles “are beside the point” is unpersuasive, particularly in light of the Krimstock court’s
heavy reliance on James Daniel Good, which itself involved analysis of due process requirements prior to
the seizure of real property. This Court readily agrees
that existing precedent reﬂects that the seizure of a
vehicle implicates signiﬁcant private interests, which
a court must take into account in its analysis and
which the Krimstock court placed great weight in, but
the signiﬁcance of an owner’s interest in a vehicle is
not in itself determinative and must be balanced in
light of the remaining factors under Mathews.
Accordingly, the Plaintiff ’s objection that Judge
White errs in disregarding the Plaintiff ’s cited cases is
overruled.

App. 53
b. Von Neumann Does Not Govern Whether
Due Process Requires a Prompt Post-Seizure Hearing
The Plaintiff objects to Judge White’s ﬁnding that
United States v. Von Neumann, 474 U.S. 242 (1986)
controls the question of whether due process requires
a prompt post-seizure hearing. This Court agrees to
the extent that Von Neumann addressed a separate
question of whether an individual’s interest in a car
seized for a customs violation or in the money put up
to secure a bond entitles him to a speedy answer to his
administrative remission petition, not disposition of
judicial forfeiture proceedings. The Supreme Court,
while noting that “most forfeitures are disposed of
through the administrative remission procedures,”
found that remission proceedings “supply both the
Government and the claimant a way to resolve a dispute informally rather than in judicial forfeiture proceedings.” Id at 250. However, “remission proceedings
are not necessary to a forfeiture determination, and
therefore are not constitutionally required.” Id. Thus,
“there is no constitutional basis for a claim that respondent’s interest in the car, or in the money put up
to secure the bond, entitles him to a speedy answer to
his remission petition.” Id. The Supreme Court also addressed $8,850, which in turn applied the speedy trial
test outlined in Barker v. Wingo, 407 U.S. 514 (1972) in
ﬁnding that an eighteen-month delay in ﬁling a customs forfeiture action did not violate constitutional
due process guarantees. On the other hand, the Supreme Court’s underlying rationale may have some

App. 54
value here where it reasoned that “[i]mplicit in this
Court’s discussion of timeliness in $8,850 was the view
that the forfeiture proceeding, without more, provides
the post-seizure hearing required by due process to
protect [the claimant’s] property interest in the car.”
Von Neumann, 474 U.S. at 249. Thus, “[a claimant’s]
right to a forfeiture proceeding meeting the Barker test
satisﬁes any due process right with respect to the car.”
Id. at 251.
Here, the Plaintiff strenuously argues that his
class claims do not challenge a delay in initiating forfeiture proceedings, which would require analysis of
the Barker test as applied in Von Neumann. Instead,
the Plaintiff argues that he has a right to a prompt
post-seizure hearing, which mandates analysis of
what procedures are required under the Mathews test.
Stated another way, “[the Plaintiff ’s] claim does not
concern the speed with which civil forfeiture proceedings themselves are instituted or conducted. Instead,
plaintiffs seek a prompt post-seizure opportunity to
challenge the legitimacy of the city’s retention of the
vehicles while those proceedings are conducted.” See
Krimstock, 306 F.3d at 68 (discussing same distinction). This Court agrees with the Plaintiff ’s objection,
to the extent that his class claims challenge the procedures due and not an alleged delay in the ﬁnal judicial
process, the proper inquiry requires application of the
Mathews factors.5

5

Again, the Supreme Court’s rationale with respect to the
private interest in a vehicle in $8,850 and Von Neumann may still

App. 55
To be sure, Judge White ultimately concluded that
“[e]ven assuming Von Neumann does not provide a
clear answer . . . a weighing of the Mathews factors
ﬁrmly supports a ﬁnding that no hearing is required to
satisfy due process.” (ECF No. 64 at 20 (analyzing the
applicability of each Mathews factor in turn).) Because
Judge White correctly weighed the Mathews factors
and found that due process does not require a prompt
post-seizure hearing, if this Court agrees with that
ﬁnding, the Plaintiff ’s objection is rendered moot.
c. The Plaintiff has not Demonstrated that a
Prompt Post-Seizure Hearing is Required
under the Mathews Factors
The Plaintiff also objects to Judge White’s ﬁndings
with respect to the Mathews factors. Regarding the
ﬁrst factor, Judge White found that “[u]nquestionably
the seizure of a vehicle implicates an important private
interest in being able to travel and to go to work.” (ECF
No. 64 at 20.) The Plaintiff objects that Judge White
“gives short shrift to the vital importance of the interest.” Upon review of the applicable law, this Court
add some value in balancing the Mathews factors. More speciﬁcally, Krimstock gave great weight to an owner’s private interest
in a vehicle in its Mathews analysis while heavily analogizing vehicle seizures to the Supreme Court’s analysis of an individual’s
right to pre-seizure notice of real property in James Daniel Good.
$8,850 and Von Neumann appear to at least contemplate on a
broader level that an individual’s private interest in a vehicle may
not be as compelling as Krimstock suggests, at least in circumstances where the applicable forfeiture procedures provide for ultimate judicial determination.

App. 56
agrees with Judge White’s ﬁnding that the seizure of a
vehicle implicates an important private interest, and
that this factor weighs in favor of the Plaintiff. Accordingly, the Plaintiff ’s objection is overruled.
The Plaintiff next objects to Judge White’s ﬁnding
that the risk of erroneous deprivation is minimal. As
stated in Krimstock, the risk of erroneous seizure and
retention of a vehicle is reduced because a trained ofﬁcer’s assessment of illegality can typically be expected
to be accurate. 306 F.3d at 62–63 (ﬁnding that this factor weighed against the requirement of a prompt postseizure hearing). Here, CBP agents are well-trained in
identifying customs violations and this Court notes
that, in the light most favorable to the Plaintiff, there
is no dispute related to the CBP agents’ assessment
here that the Plaintiff ’s vehicle contained the magazine and bullets when he was attempting to enter Mexico. See David, 538 U.S. at 718 (ﬁnding minimal risk of
erroneous deprivation where straightforward nature
of allegations makes errors unlikely). Moreover, this
Court agrees that the risk of erroneous deprivation
was further minimized “by the duty of the United
States Attorney immediately after notiﬁcation of the
seizure to investigate the facts and laws and independently to determine whether initiation of forfeiture
proceedings [is] warranted.” One 1971 BMW, 652 F2d
at 821. The Plaintiff responds that his Complaint alleges that CBP does not forward cases to the U.S. Attorney in a timely fashion. However, as Plaintiff has
strenuously argued, his class claims involve the issue
of whether an additional prompt-post seizure hearing

App. 57
is required by due process, not that the delay in the
carrying out the existing procedures violates due process. As discussed above, arguments regarding delay in
the existing procedures would require analysis of the
Barker factors as applied in $8,850 and Von Neumann.6 Here, Congress has provided several alternative remedial processes under the applicable portions
of the customs scheme by which the Plaintiff may correct the erroneous deprivation of his vehicle, including
the opportunity to ﬁle a petition for remission; the U.S.
Attorney’s independent review; the availability of a
Rule 41(g) motion, or if no criminal action is pending,
invoking this Court’s general equity jurisdiction; and
ultimate judicial determination of the forfeiture. Id. at
820; see also Smith, 524 F.3d at 837 (distinguishing
Von Neumann by noting that the risk of erroneous deprivation is lessened in forfeiture proceedings under the
customs laws because of the availability of relief under
Rule 41). Just as in One 1971 BMW, the availability of
such alternative remedial processes under the federal
scheme here strongly suggests that Congress has already determined what process is due. This Court accordingly ﬁnds that the risk of erroneous deprivation
is minimal. The Plaintiff ’s objection is overruled.
Finally, the Plaintiff objects to Judge White’s ﬁndings with respect to the weight given to the third
Mathews factor, the Government’s interest. As other
6

Again, to the extent that the Plaintiff challenges the timeliness in receiving process, his right to a forfeiture proceeding
meeting the Barker test satisﬁes any due process right with respect to the car. See Von Neumann, 474 U.S. at 251.

App. 58
courts have held, this Court cannot ignore the fact that
the seizure at issue occurred pursuant to laws designed to curb illegal activity—in this instance, the exportation of munitions of war. See One 1971 BMW, 652
F2d at 821. Seizure and forfeiture of vehicles for violations of laws foster the public interest. Id. (citing
Calero-Toledo v. Pearson Yacht Leasing Co., 416 U.S.
663, 679 (1974)). Moreover, the interest of the Plaintiff
“in the uninterrupted use of his vehicle is not so compelling as to outweigh the substantial interest of the
government in controlling [the illegal exportation of
munitions] without being hampered by costly and substantially redundant administrative burdens.” Id. Additionally, after Krimstock was decided, the Supreme
Court recognized that “administrative resources . . .
are not limitless.” David, 538 U.S. at 718. (ﬁnding that
added administrative burden of providing prompt
post-seizure hearings “strongly” weighs in favor of the
government). The Plaintiff argues that Washington
and Brown discounted the administrative burdens
that could be caused by prompt post-seizure hearing
for the governments in Marion County, Indiana and
the District of Columbia. However, the proposed hearings in those cases were far less redundant than the
proposed hearings here because those jurisdictions did
not have the alternative remedial processes under federal law as outlined above in order to correct erroneous
deprivations.7
7

The Court also remains unconvinced by the Plaintiff ’s proposed standard that due process requires the Government to
provide such hearings where it is theoretically possible or even

App. 59
For all of these reasons, this Court ﬁnds that the
Government’s substantial interest in controlling the
exportation and importation of illegal contraband at
the border without being hampered by costly and substantially redundant administrative burdens weighs
against requiring a prompt post-seizure hearing. Thus,
the Plaintiff ’s objection is overruled.
Because this Court ﬁnds a weighing of the
Mathews factors indicates that due process does not require a prompt post-seizure, pre-forfeiture hearing, the
Plaintiff has failed to state a claim for which relief can
be granted. Accordingly, his class claims should be dismissed.8
B. Motion to Certify Class Action
The Plaintiff additionally objects to Judge White’s
recommendation, after ﬁnding the Plaintiff ’s class
claims be dismissed for failure to state a claim, that
the Plaintiff ’s motion for class certiﬁcation be denied
because there are no remaining issues to base class
certiﬁcation on. For the reasons outlined above, this
Court ﬁnds that the Plaintiff has failed to state a claim
on behalf of the class members. No issues remain to
plausible that the Federal Government, or any other, would be
able to conduct such hearings.
8
The Plaintiff did not object to Judge White’s ﬁndings with
respect to the Plaintiff ’ class claim involving the requirement of
posting a bond to institute forfeiture procedures. (ECF No. 64 at
22–23). Thus, having reviewed Judge White’s ﬁndings on that issue for clear error and ﬁnding none, the Court adopts that section
of Judge White’s report in full.

App. 60
base class certiﬁcation on, and therefore, the Plaintiff ’s
Motion to Certify Class should also be denied. Accordingly, the Plaintiff ’s objection is overruled.
C. Bivens Claims
The Plaintiff next objects to Judge White’s ﬁndings that (1) this case arises in a “new context” because
the Supreme Court has not recognized a Bivens remedy under these facts and (2) that special factors advise hesitation against allowing the Plaintiff ’s claims
to proceed. (ECF No. 65 at 13–19.) The Plaintiff ’s
Bivens claims allege that Defendant Espinoza violated
his Fourth and Fifth Amendment rights by processing
the Plaintiff ’s case for civil forfeiture without providing for any post-seizure judicial process or instituting
forfeiture proceedings. (ECF No. 1 at 15, 21, 22.) The
Plaintiff also alleges that the unknown defendants had
authority to hold or release his truck and are therefore
responsible for violating his Fourth and Fifth Amendment rights because they maintained custody of his vehicle for over 23 months without judicial process. (Id.
at 15, 21, 22–23.) The Plaintiff argues that a reasonable ofﬁcial in the Bivens Defendants’ shoes would have
understood that holding property for such an unreasonable period of time without a post-seizure hearing
and without commencing forfeiture proceedings violates due process and constitutes an unreasonably prolonged seizure in violation of the Fourth Amendment.
(Id. at 15–16, 21.) The Plaintiff ’s objections are overruled.

App. 61
The Supreme Court recently clariﬁed the reach
and limits of Bivens claims for damages for violations
of the Constitution in Ziglar v. Abbasi. See 137 S. Ct.
1843, 1854–65 (2017). In 1871, Congress passed a statute later codiﬁed at Rev. Stat. § 1979, 42 U.S.C. § 1983,
which entitles an injured person to money damages if
a state ofﬁcial violates his or her constitutional rights.
In the 100 years leading up to Bivens, Congress did not
provide a speciﬁc damages remedy to plaintiffs who
suffered violations of their constitutional rights at the
hands of agents of the Federal Government. Then, in
1971, the Supreme Court held in Bivens that, even absent statutory authorization, it would enforce a damages remedy pursuant to general principles of federal
jurisdiction in order to compensate persons injured by
federal ofﬁcers who violated the prohibition against
unreasonable search and seizures. 403 U.S. at 392, 397.
The Supreme Court has since approved an implied
damages remedy under the Constitution in only two
other contexts. See Davis v. Passman, 442 U.S. 228
(1979) (gender discrimination claim pursuant to Fifth
Amendment’s Due Process Clause); Carlson v. Green,
446 U.S. 14 (1980) (failure to provide adequate medical
treatment claim pursuant to Eighth Amendment’s
Cruel and Unusual Punishment Clause).
In the years that followed Bivens, Davis, and Carlson, the arguments for recognizing implied causes of
action for damages began to lose their force, and the
Supreme Court adopted a “far more cautious course before ﬁnding implied causes of action.” Ziglar, 137 S. Ct.
at 1855. Now, when a party seeks to assert an implied

App. 62
cause of action under the Constitution, separation-ofpowers principles are central to the analysis. Id. at
1857. To be sure, the Supreme Court reiterated that
Bivens remains well-settled law in its own context, but
“expanding the Bivens remedy is now a ‘disfavored’ judicial activity[,]” and the Court has “‘consistently refused to extend Bivens to any new context or new
category of defendants.’” Id. at 1855, 1857 (quoting
Iqbal, 556 U.S. at 675; Correctional Services Corp. v.
Malesko, 534 U.S. 61, 68 (2001)). The guiding principle
to be considered in a Bivens analysis is “‘who should
decide’ whether to provide for a damages remedy, Congress or the courts?” Ziglar, 137 S. Ct. at 1857 (quoting
Bush, 462 U.S. at 380). “The answer most often will be
Congress. When an issue involves a host of considerations that must be weighed and appraised, it should be
committed to those who write the laws rather than
those who interpret them.” Id. (internal quotations and
citations omitted).
In analyzing whether a Bivens remedy for damages should be extended to a particular plaintiff ’s
claim, courts must therefore determine (1) whether the
claim arises in a new context from previous Bivens
cases decided by the Supreme Court, and if so, (2)
whether special factors exist that counsel hesitation in
the absence of afﬁrmative action by Congress. Id. at
1859.

App. 63
1. The Plaintiff ’s Bivens Claims Arise in a New
Context
Judge White found that both the Plaintiff ’s Fourth
and Fifth Amendment Bivens claims differ in meaningful ways from previous Bivens cases decided by the Supreme Court and therefore arise in a new context. The
Plaintiff objects to Judge White’s ﬁndings and argues
that his Bivens claims do not arise in a new context
because the Supreme Court recently reafﬁrmed the
continued vitality of Bivens in the Fourth Amendment
context and has “explicitly endorsed” Fifth Amendment Bivens claims for unreasonable delay in civil forfeiture cases. (ECF No. 65 at 13–15.)
The proper test for determining whether a case
presents a new Bivens context is the following: “If the
case is different in a meaningful way from previous
cases decided by the Supreme Court, then the context
is new.” Ziglar, 137 S. Ct. at 1859. Some of the meaningful differences may include “the rank of the ofﬁcers
involved; the constitutional right at issue; the generality or speciﬁcity of the ofﬁcial action; the extent of judicial guidance as to how an ofﬁcer should respond to
the problem or emergency to be confronted; the statutory or other legal mandate under which the ofﬁcer
was operating; the risk of disruptive intrusion by the
Judiciary into the functioning of other branches; or the
presence of potential special factors that previous
Bivens cases did not consider.” Id. at 1860.

App. 64
a. Fourth Amendment Claim
Here, the Plaintiff ’s Fourth Amendment claim
bears little resemblance to the three Bivens claims
that the Supreme Court has approved in the past, particularly in light of the Court’s recent analysis in
Ziglar. In Ziglar, the plaintiffs were a subset of more
than 700 aliens arrested and detained on immigration
charges following the September 11, 2001 terrorist attacks. Id at 1852–53. Upon detention, the Federal Bureau of Investigation (“FBI”) designated the aliens as
either “not of interest” or “of interest” in its investigation of the terrorist attacks. Id. at 1852. If a detainee
was designated not of interest, the alien was processed
according to the normal immigration procedures. Id.
However, if any doubt as to the proper designation existed in a particular case, the detainee was designated
as “hold-until-cleared.” Id. The plaintiffs were aliens
who were subject to the hold-until-cleared policy that
were detained without bail for periods ranging from
three to eight months. Id. The hold-until-cleared detainees were housed in the Administrative Maximum
Special Housing Unit of the Metropolitan Detention
Center in Brooklyn, New York. Id. Pursuant to ofﬁcial
Bureau of Prisons (“BOP”) policy, the detainees were
subjected to several harsh conditions of conﬁnement,
including being held in tiny cells for over 23 hours per
day; having their lights kept on 24 hours per day; being
granted little opportunity for exercise or recreation; being forbidden to keep anything in their cells, including
basic hygiene products; being shackled and escorted by
four guards when removed from their cells for any

App. 65
reason; being denied access to most forms of communication with the outside world; and being strip searched
often—any time they were moved, as well as at random
in their cells. Id. at 1853. The hold-until-cleared detainees were also allegedly subjected to harsh conditions not imposed pursuant to ofﬁcial policy, including
physical and verbal abuse from guards; being slammed
into walls; having their arms, wrists, and ﬁngers
twisted; having bones broken; being referred to as terrorists; being threatened with violence; and being subjected to humiliating sexual comments and insults
about their religion. Id. While acknowledging that in
the ordinary course aliens who are present in the
United States may be detained without legal authorization for some period of time, the “gravamen of [the
plaintiffs’ claims were] that the Government had no
reason to suspect them of any connection to terrorism,
and thus had no legitimate reason to hold them for so
long in these harsh conditions.” Id.
The Supreme Court found that—despite their detention for months without bail under the harsh conditions described above—the aliens’ claims “bear little
resemblance to the three Bivens claims the Court has
approved in the past: a claim against FBI agents for
handcufﬁng a man in his own home without a warrant;
a claim against a Congressman for ﬁring his female
secretary; and a claim against prison ofﬁcials for failure to treat an inmate’s asthma.” Id. at 1860 (citing
Bivens, 403 U.S. at 388; Davis, 442 U.S. at 228; Chappell v. Wallace, 462 U.S. 296 (1983)).

App. 66
Like Judge White, this Court agrees that the
Plaintiff ’s Fourth Amendment claim—that the seizure
of his property for over 23 months, without judicial process, violates the Fourth Amendment’s prohibition on
unreasonable seizures—is meaningfully different from
the Supreme Court’s three previous Bivens cases and
therefore arises in a new context. While Ziglar reafﬁrmed “the continued force, or even the necessity, of
Bivens in the search-and-seizure context in which it
arose,” the Supreme Court simultaneously emphasized
its longstanding cautionary approach to expanding
Bivens remedies today, such that even slight differences can indicate that a particular claim arises in a
new context. See Ziglar, 137 S. Ct. at 1856. Ziglar also
forecloses the Plaintiff ’s conclusory argument that his
Fourth Amendment claim arises in the same context
as Bivens simply because he alleged a violation of the
Fourth Amendment’s prohibition against unreasonable searches and seizures. The Supreme Court rejected
such an expansive standard in ﬁnding that the appellate court erred in its analysis of (1) whether the right
at issue was the same, and if so, (2) whether the mechanism of injury was the same. See id. at 1859–60 (citing Malesko, 534 U.S. at 64 (ﬁnding different context
despite almost parallel circumstances, where the right
at issue and mechanism of injury were the same)).
Even using such analysis, the Plaintiff ’s claim here
would still not pass muster, where he argues that the
Fourth Amendment right at issue is the same, but has
not demonstrated that the FBI’s warrantless handcuffing of a man in his home in Bivens involves the same
mechanism of injury as CBP’s lawful seizure of

App. 67
property under 19 U.S.C. § 1595a(d) and 22 U.S.C.
§ 401, that according to the Plaintiff is unlawful because of the delay in receiving judicial process.
The Supreme Court’s consistent refusal to expand
Bivens remedies over the past 30 years, discussed at
length in Ziglar, similarly forecloses the Plaintiff ’s reliance on decades-old circuit decisions in objecting that
Judge White erred in ﬁnding that the Supreme Court
has not recognized a Bivens remedy in the asset forfeiture context. See (ECF No. 65 at 13 (citing Seguin v.
Eide, 720 F.2d 1046, 1048 (9th Cir. 1984) (customs ofﬁcials held vehicle for six months without a hearing);
States Marine Lines, Inc. v. Schultz, 498 F.2d 1146,
1152 (4th Cir. 1974) (customs ofﬁcials held cargo
freight for seventeen months without a hearing)); see
also Ziglar, 137 S. Ct. at 1857 (collecting cases)). The
Supreme Court’s instructions are clear: courts must
determine whether “the case is different in a meaningful way from previous Bivens cases decided by this
Court.” Ziglar, 137 S. Ct. at 1859–60. Such an instruction precludes this Court from relying on cases decided
by “federal courts,” as Plaintiff requests, and particularly nonbinding federal court cases decided prior to
the Supreme Court’s clear shift to its cautionary approach to expanding Bivens remedies. This Court also
agrees with Judge White that the remaining cases that
the Plaintiff cites are meaningfully different because
those cases involved the unlawful seizure of property,
or the continued seizure of property once the initial
justiﬁcation for the seizure expired and, in any event,
did not arise in the asset forfeiture context. In the light

App. 68
most favorable to the Plaintiff, the initial justiﬁcation
of the seizure of his vehicle, magazine, and bullets was
lawful and that justiﬁcation did not expire. Such differences are meaningful enough to lead this Court to
ﬁnd that Plaintiff ’s Fourth Amendment claim arises in
a new context from the Supreme Court’s previously decided Bivens cases.
The Plaintiff additionally objects to Judge White’s
analysis that the true premise of his argument is that
the delay in processing the forfeiture claim made the
forfeiture, not the seizure, unconstitutional. See (ECF
No. 64 at 30.) Judge White found that, while such an
allegation may establish a potential Fifth Amendment
violation, the Plaintiff may not simply reframe his
Fifth Amendment allegation as a Fourth Amendment
claim. (Id.) Judge White also added, on the other hand,
that the distinctions present here are meaningful
enough from prior Supreme Court and Fifth Circuit
cases to ﬁnd that Plaintiff ’s claims arise in a new context. (Id.) The Plaintiff argues that his Fourth Amendment claim cannot be dismissed simply because his
Fifth Amendment rights were also allegedly violated
and refers this Court to his Complaint, which alleges
that the “seizure of Plaintiff ’s property for over
twenty-three months, without judicial process, violates
the Fourth Amendment’s prohibition on unreasonable
seizures.” (ECF No. 65 at 14. (quoting ECF No. 1
¶ 138).) This Court disagrees with Plaintiff ’s reading
of Judge White’s report to the extent that Plaintiff argues that Judge White found the Plaintiff ’s Fourth
Amendment claim was solely precluded by the

App. 69
existence of his potential Fifth Amendment claim. In
any event, the Plaintiff ’s objection is moot because this
Court agrees with Judge White’s ultimate conclusion
that Bivens allegations relating to the lawful seizure of
the Plaintiff ’s property that allegedly became unlawful by delay in receiving judicial process differ enough
from prior Bivens cases to support a ﬁnding that the
Plaintiff ’s Fourth Amendment claim arises in a new
context.
For the same reason, the Plaintiff ’s objection “to
the extent that [the report suggests his] Fourth
Amendment claim should fail on the merits” is overruled. The Plaintiff is correct that the issue presently
before this Court is whether his Fourth Amendment
Bivens claim may be heard, not the underlying merits
of his Fourth Amendment claim. However, Judge
White ultimately found, and this Court agrees, that the
factual circumstances in this case meaningfully differ
enough from the Supreme Court’s prior approved
Bivens cases to support a ﬁnding that the Plaintiff ’s
Fourth Amendment Claim arises in a new context. The
Plaintiff ’s objections to Judge White’s ﬁnding that his
Fourth Amendment Claim arises in a new context are
therefore overruled.
b. Fifth Amendment Claim
The Plaintiff similarly objects to Judge White’s
ﬁnding that his Fifth Amendment Bivens claim arises
in a new context. The Plaintiff argues that “federal
courts have allowed this type of Bivens claim for

App. 70
almost half a century, and the Supreme Court endorsed that longstanding practice in Davis . . . .” (ECF
No. 65 at 15–16.) The Plaintiff adds that the Supreme
Court included a footnote in Davis citing a 1974 Fourth
Circuit case that allowed a Fifth Amendment Bivens
claim to proceed following an approximately seventeen-month cargo freight seizure by customs ofﬁcials.
(Id. at 16 (citing 442 U.S. at 244 n.22 (in turn citing
State Marine Lines, 498F.2d at 1146))). The Plaintiff
objects that, even if a 1979 Supreme Court footnote citing a circuit opinion not before the Court is dicta,
Judge White erred because this Court is bound by both
the holding and reasoning of the Supreme Court, even
if it is dicta. (ECF No. 65 at 16.)
Judge White found that the Plaintiff ’s Fifth
Amendment claim arises in a new context because the
Supreme Court has not recognized a Bivens cause of
action under the Fifth Amendment in the asset forfeiture context. (ECF No. 64 at 27.) Judge White distinguishes the Supreme Court’s explicit recognition of a
Bivens Fifth Amendment cause of action in Davis because it “involved gender-based employment discrimination and is wholly dissimilar to the facts here.” (Id.)
Citing Ziglar, Judge White then rejected the Plaintiff ’s
argument that cases need not be identical in order to
ﬁnd that this case arises in the same context as previous Bivens claims under the Fifth Amendment. (Id.)
According to Judge White, [a]n equal protection claim
challenging conditions of conﬁnement has nothing
in common with an asset forfeiture case, other than
the fact that both claims arise under the Fifth

App. 71
Amendment.” (Id.) With respect to the Davis footnote
citing State Marine Lines, Judge White reasoned that
a 1979 Supreme Court footnote citing a circuit opinion
is dicta and hardly grounds to ﬁnd the same context
here. (Id. at 28.) Judge White also noted that State Marine Lines itself “is extremely outdated, called into
question by Bivens progeny, and likely overruled.” (Id.
n.18.)
As discussed at length above with respect to the
Plaintiff ’s Bivens claim under the Fourth Amendment,
whether the Plaintiff ’s Fifth Amendment claim arises
in a new context from previously approved Bivens
cases requires analysis in light of the Supreme Court’s
instructions in Ziglar. If the case is different in a meaningful way from previous Bivens cases decided by the
Supreme Court, then the context is new. Ziglar, 137
S. Ct. at 1859. “[E]ven a modest extension is still an
extension.” Id. at 1864. Here, this Court agrees with
Judge White’s conclusion that the Plaintiff ’s Fifth
Amendment claim—that the Bivens Defendants’ retention of the Plaintiff ’s property without a post-seizure hearing violates the Due Process Clause—bears
little resemblance to a claim against a Congressman
for ﬁring his female secretary and therefore arises in a
new context. See id. at 1860. Again, given the clear
shift in the Supreme Court’s approach to recognizing
implied causes of action such that expanding the
Bivens remedy is now a “disfavored” judicial activity,
and consistent refusal over the past 30 years to extend
Bivens to any new context or new category of defendants, the Plaintiff ’s reliance on nonbinding circuit

App. 72
opinions decided shortly after Bivens does not persuade this Court to disregard the Supreme Court’s instructions in Ziglar. Moreover, as discussed at length
in the previous section, Ziglar rejects the Plaintiff ’s
proposed expansive argument that an alleged violation
of the same constitutional right requires a ﬁnding that
a particular claim sufﬁciently arises in the same context as prior Bivens cases without further examination
into the circumstances of a particular case. See id. at
1859–60. The Plaintiff ’s objection is therefore overruled.
Because this Court ﬁnds that the Plaintiff ’s
Bivens claims under the Fourth and Fifth Amendment
arise in a new Bivens context, a special factors analysis
is required before allowing Plaintiff ’s claim for damages to proceed.
2. Special Factors Exist that Counsel Hesitation
The Plaintiff next objects that there are no special
factors counseling hesitation and argues that Judge
White erred in ﬁnding that the customs forfeiture laws
amount to a comprehensive scheme that demonstrates
Congress’s reluctance to the extend the availability of
monetary damages. (ECF No. 65 at 17.) The Plaintiff
argues that the mere existence of a detailed statutory
scheme does not preclude a Bivens remedy. Instead,
“the statutory scheme must show that Congress made
a considered decision about how best to remedy the
type of violation suffered by the plaintiff.” (Id.) The
Plaintiff concludes that, because the customs forfeiture

App. 73
laws are silent on what should happen if the Government unreasonably delays initiating a forfeiture action, Congress “appears not to have considered the
question.” (Id. at 17–18.) The Plaintiff also objects that
Judge White’s erred in considering other alternate
remedies, including the possibility of ﬁling a Rule 41(g)
motion pursuant to the Federal Rules of Criminal Procedure. Finally, while agreeing that this Court has general equity jurisdiction that may be invoked in cases of
delay, the Plaintiff argues that his need to invoke equity jurisdiction demonstrates the absence of a comprehensive statutory scheme. (Id. at 18–19.)
Judge White found that Congress has already implemented procedural protections that sufﬁciently
function as review systems. (ECF No. 64 at 31.) Such
systems, Judge White concluded, are analogous to
the protection schemes that the Supreme Court previously found to preclude implied Bivens remedies in
Schweiker and Bush. See Schweiker v. Chilicky, 487
U.S. 412, 423 (1988) (person seeking disability beneﬁts
can pursue various levels of recourse after an initial
determination of eligibility, including review by a federal ALJ a hearing before the Appeals Council; and judicial review); Bush v. Lucas, 462 U.S. 367 (1983) (First
Amendment suit against federal employer, where
there existed comprehensive procedural and substantive provisions for civil service remedies). Judge White
further reasoned that the absence of a statutory provision allowing for monetary damages against either the
United States or an ofﬁcer in his or her individual capacity indicates Congress’s reluctance to extend the

App. 74
availability of monetary damages against individual
ofﬁcers. (ECF No. 64 at 31–32 (citing Schweiker, 487
U.S. at 424).) Additionally, Judge White found that recognizing a cause of action would have signiﬁcant consequences on the federal government and its
employees, and that Congress is in a far better position
than a court to evaluate the impact of a new species of
litigation. Finally, Judge White found that there is
nothing unconstitutional about the forfeiture scheme
itself, and in any event, Schweiker made it clear that
courts must look to the comprehensiveness of the statutory scheme involved, not the adequacy of speciﬁc
remedies extended thereunder. (Id. at 33.)
A Bivens remedy will not be extended to new contexts where there are “special factors counselling hesitation in the absence of afﬁrmative action by
Congress.” Ziglar, 137 S. Ct. at 1857–58 (internal citations and quotations omitted). The Supreme Court has
not deﬁned the phrase “special factors counseling hesitation[,]” however, “the inquiry must concentrate on
whether the Judiciary is well suited, absent congressional action or instruction, to consider and weigh the
costs and beneﬁts of allowing a damages action to proceed.” Id. Thus, a special factor counseling hesitation
must cause a court to hesitate before answering that
question in the afﬁrmative. Id. “The decision to recognize a damages remedy requires an assessment of its
impact on governmental operations system-wide.
Those matters include the burdens on Government
employees who are sued personally, as well as the projected costs and consequences to the Government itself

App. 75
when the tort and monetary liability mechanisms of
the legal system are used to bring about the proper formulation and implementation of public policies.” Id. at
1858.
Importantly, courts defer to indications that congressional inaction has not been inadvertent.
Schweiker, 487 U.S. at 423. Courts also have not created additional Bivens remedies “[w]hen the design of
a Government program suggests that Congress has
provided what it considers adequate remedial mechanisms for constitutional violations that may occur in
the course of its administration.” Id. “If the statute
does not display an intent to create a private remedy,
then a cause of action does not exist and courts may
not create one, no matter how desirable that might be
as a policy matter, or how compatible with the statute.”
Ziglar, 137 S. Ct.. at 1856. Likewise, the “absence of
statutory relief for a constitutional violation . . . does
not by any means necessarily imply that courts should
award money damages against the ofﬁcers responsible
for the violation.” Schweiker, 487 U.S. at 421–22. Even
where existing remedies do not provide “complete relief ” for a plaintiff, the Supreme Court has refused to
create a Bivens action. Id. at 423 (internal citations
omitted).
Here, having considered the special factors necessarily implicated by the Plaintiff ’s Fourth and Fifth
Amendment claims, this Court ﬁnds that those factors
demonstrate that Congress should decide whether a
damages actions should be allowed, not the courts. At
the outset, this Court agrees with Judge White’s

App. 76
ﬁnding that the forfeiture system in place cannot reasonably be distinguished from the review systems in
Bush and Schweiker. Just as in Bush and Schweiker,
Congress has failed to provide for “complete relief ” to
the extent that the Plaintiff has not been given a remedy in damages for allegedly unreasonable delays in
receiving judicial process following the seizure of his
property. Therefore, the creation of a Bivens remedy
would obviously offer the prospect of relief for alleged
injuries that must now go unredressed. However, even
assuming arguendo Plaintiff ’s allegation that the seizure of his property for 23 months was in fact unreasonable, despite the ﬁve-year statute of limitations
under 19 U.S.C. § 1621, Congress still has not failed to
provide meaningful safeguards or remedies for the
rights of persons situated as the Plaintiff was here.
After CBP ofﬁcers seized the Plaintiff ’s vehicle,
bullets, and magazine pursuant to 19 U.S.C. § 1595a(d)
and 22 U.S.C. § 401, the Plaintiff had several alternatives under the existing scheme that served as sufﬁcient safeguards available to him in order to remedy
the alleged wrongful seizure of his property. Indeed, on
October 1, 2015, CBP issued the Plaintiff a NonCAFRA Notice of Seizure and Information to Claimants outlining those several alternatives available to
him, including (1) ﬁling an administrative petition for
remission under 19 U.S.C. § 1618; (2) submitting an offer of compromise under 19 U.S.C. § 1617; (3) abandoning the property; or (4) requesting a referral to the
United States Attorney’s Ofﬁce for the institution of

App. 77
judicial forfeiture proceedings. See (ECF No. 50–2.)9
Additionally, this Court notes the Plaintiff ’s actual ﬁling of a Rule 41(g) motion in this case, regardless of its
merits, prompted CBP to return his property. Moreover, the Plaintiff concedes that invoking this Court’s
general equity jurisdiction was an alternative available to him at any point during the alleged delay. (ECF
No. 65 at 18–19.)
The existence of the administrative scheme here,
combined with the Plaintiff ’s option to ﬁle a Rule 41(g)
motion or invoke this Court’s general equity jurisdiction, strongly suggests that there exists alternate remedial processes available to the Plaintiff for the type
of violation that he allegedly suffered. The existence of
such alternate remedial processes in this case is sufﬁcient to deny the Plaintiff an additional Bivens remedy.
See Ziglar, 137 S. Ct. at 1858. These alternate remedial
9

The Plaintiff appears not to have opted to take advantage
of at least one of the administrative remedies available to him
that most similarly situated people utilize. See Von Neumann,
474 U.S. at 250 (observing that most forfeitures are resolved
through petitions for remission). Therefore, while the Plaintiff ’s
claims relate to unreasonable delay in receiving judicial process
through the current scheme, the Court does note that he declined
to exercise his option to directly and immediately petition CBP
for administrative remission in addition to seeking referral to the
U.S. Attorney for judicial action during the time his property was
seized. Even in the event that the Plaintiff was dissatisﬁed with
the decision on that hypothetical petition for remission, he then
would have been granted an additional 60 days to request to have
his case reviewed by the U.S. Attorney’s ofﬁce for judicial action.
(ECF No. 50–2 at 2.) At any time, the Plaintiff also could have,
and did, ﬁle a Rule 41(g) motion or invoke this Court’s general
equity jurisdiction.

App. 78
processes available to the Plaintiff also strongly suggest that this is not a case of “damages or nothing” as
the he argues, and the Court again notes that the
Plaintiff ’s actual utilization of one available method in
this case resulted in the return of his property. See
Ziglar, 137 S. Ct. at 1862.
Additionally, Schweiker forecloses the Plaintiff ’s
argument that the forfeiture laws do not amount to a
comprehensive statutory scheme because they do not
speciﬁcally address the question of what should happen if the Government unreasonably delays initiating
a forfeiture action. See Schweiker, 487 U.S. at 427–28
(“Here, as in Bush, it is evident that if we were to fashion an adequate remedy for every wrong that can be
proved in a case . . . [the complaining party] would obviously prevail. . . . In neither case, however, does the
presence of alleged unconstitutional conduct that is
not separately remedied under the statutory scheme
imply that the statute has provided ‘no remedy’ for the
constitutional wrong at issue.”) (internal quotations
and citations omitted). For the same reason, this Court
is unpersuaded by the Plaintiff ’s argument, without
citing authority, that the statutory scheme must afﬁrmatively demonstrate that Congress made a considered decision about how best to remedy the speciﬁc
type of violation suffered by the Plaintiff in order to
preclude a Bivens remedy. In fact, it is equally reasonable here to conclude that “Congress’ failure to provide
a damages remedy might be more than mere oversight,
and that congressional silence might be more than
‘inadvertent.’” Ziglar, 137 S. Ct. at 1862 (citing

App. 79
Schweiker, 487 U.S. at 423). Put another way, and just
like in Ziglar, the silence of Congress here is relevant,
and it is telling. Id. Congressional interest in the customs laws has been frequent and intense. Congressional interest speciﬁcally in asset forfeitures has been
demonstrated by Congress’s enactment of the Civil Asset Forfeiture Reform Act of 2000 (CAFRA). That legislation’s exemption from the processing timeline
contained therein of the forfeiture proceedings, under
19 U.S.C. § 1595a and 22 U.S.C. § 401, sufﬁciently
causes this Court to hesitate before creating a Bivens
remedy in these circumstances. See 18 U.S.C. § 983(i).
Congress has, however, provided for a ﬁve-year statute
of limitations under these circumstances, and this
Court further hesitates to create a Bivens remedy
where the Plaintiff ’s claim concludes that 23 months
is unreasonable, despite the applicable statute of limitation. See 19 U.S.C. § 1621.
Additional special factors are present that make
this Court hesitate to conclude that the Judiciary is
well-suited, absent congressional action or instruction,
to consider and weigh the costs and beneﬁts of allowing a damages action to proceed. For example, this
Court agrees with Judge White’s ﬁnding that recognizing a cause of action here would also have signiﬁcant
consequences on the federal government and its employees. (ECF No. 64 at 32.) The risk of personal damages liability is more likely to cause an employee to
second guess difﬁcult but necessary decisions concerning seizures under the customs laws. See Ziglar, 137
S. Ct. at 1862. Recognizing a new Bivens remedy here

App. 80
would therefore weaken the strong governmental interest in halting criminal organizations’ exportation of
fruits of criminal enterprises into Mexico because border agents may hesitate before acting for fear of personal liability. See De La Paz v. Coy, 786 F. 3d 367, 379
(5th Cir. 2015) (declining to recognize a Bivens remedy
in part because “[f]aced with a threat to his checkbook
from suits based on evolving and uncertain law, the ofﬁcer may too readily shirk his duty”). Moreover, creating a new remedy would impair the Executive Branch’s
power to control the borders and promote our relationship with Mexico by stemming the ﬂow of arms into
Mexico. Id. at 379 (ﬁnding Executive Branch has “‘inherent power as sovereign to control and conduct relations with foreign nations.’”) (internal citations
omitted). Additionally, seizing money and property
from criminals allows law enforcement to preserve
evidence throughout its investigation and establish in
rem jurisdiction during subsequent forfeiture proceedings.
The special factors outlined above are sufﬁcient
enough for this Court to ﬁnd that whether a Bivens action for damages should be allowed is a decision for
Congress to make. Congress is in a better position than
the courts to decide whether the creation of a new substantive legal liability here would serve the public interest. Schweiker, 487 U.S. at 426–27; Bush, 462 U.S.
at 390. Whether or not we believe that Congress’s response in this case was the best response, Congress is
the body charged with making the inevitable compromises required in the design of a massive and complex

App. 81
asset forfeiture scheme under the customs laws.
Schweiker, 487 U.S. at 429 (citation omitted). In summary, this Court ﬁnds that the Plaintiff ’s Fourth and
Fifth Amendment Bivens claims arise in a new context
from previously decided Supreme Court cases and special factors counsel against expanding Bivens here.
The Plaintiff ’s objections with respect to his Fourth
and Fifth Amendment Bivens claims are therefore
overruled.
IV.

CONCLUSION

Having reviewed the record and law in this case,
this Court now ORDERS the following:
1. The Plaintiff ’s Motion for Class Certiﬁcation
(ECF No. 4) is DENIED AS MOOT.
2. The Motion to Dismiss by Defendants United
States Customs and Border Protection, United
States of America, and Kevin McAleenan (ECF No.
49) is GRANTED, the Rule 41(g) Motion is DISMISSED AS MOOT, and the class claims against
them is DISMISSED WITH PREJUDICE to reﬁling by the above-named Plaintiff, but without
prejudice as to any other potential plaintiffs.
3. Defendant Espinoza’s Motion to Dismiss (ECF
No. 50) is GRANTED and the claims against him
are DISMISSED WITH PREJUDICE.
4. Finally, the claims against the unknown defendants are DISMISSED WITHOUT PREJUDICE. Assuming the Plaintiff could identify any
of the unknown defendants at a later time,

App. 82
amendment of the Complaint pursuant to Rule
15(a)(2) of the Federal Rules of Civil Procedure to
name the speciﬁc agents would be futile, since a
Bivens claim against them would have no merit.
Courts, however, lack personal jurisdiction over
unidentiﬁed ﬁctitious defendants. See Cunningham v. Advanta Corp., 2009 WL 10704752, at *3
(N.D. Tex. Feb. 6, 2009); Taylor v. Fed. Home Loan
Bank Bd., 661 F. Supp. 1341, 1350 (N.D. Tex.
1986). Therefore, the claims should be dismissed
without prejudice, pursuant to Federal Rule of
Civil Procedure 12(b)(2). See Int’l Energy Ventures
Mgmt., L.L.C. v. United Energy Grp., Ltd., 818 F.3d
193, 213 (5th Cir. 2016) (dismissal for lack of personal jurisdiction must be without prejudice).
It is so ORDERED.
SIGNED and ENTERED on this 28th day of September, 2018.
/s/ Alia Moses
ALIA MOSES
United States District Judge

App. 83
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
DEL RIO DIVISION
GERARDO SERRANO,
Plaintiff,

§
§
§
v.
§ Civil Action No.
U.S. CUSTOMS AND
§ 2:17-CV-48–AM–CW
BORDER PROTECTION; §
UNITED STATES OF
§
AMERICA, KEVIN
§
McALEENAN, Acting
§
Commissioner of U.S.
§
Customs and Border
§
Protection, Sued in His §
Ofﬁcial Capacity; JUAN §
ESPINOZA, Fines, Penal- §
ties, and Forfeiture Para- §
legal Specialist, Sued in §
His Individual Capacity; §
JOHN DOE I-X, Unknown §
U.S. Customs and Border §
Protection Agents, Sued §
in Their Individual
§
Capacities,
§
Defendants.
§
REPORT AND RECOMMENDATION
(Filed Jul. 23, 2018)
To the Honorable Alia Moses, United States District Judge:

App. 84
On September 6, 2017, Plaintiff Gerardo Serrano
ﬁled suit against the above-named defendants, alleging constitutional violations after his truck and its contents were seized at the United States-Mexico border.
Plaintiff argues that Defendants denied him his constitutional rights: (1) by requiring him to post a bond
to institute forfeiture proceedings; (2) by failing to provide him with a prompt post-seizure hearing to contest
the validity of the seizure of his property; and (3) by
waiting over twenty-three months without returning
his property or instituting forfeiture proceedings.
Plaintiff seeks declaratory and injunctive relief
against the United States, U.S. Customs and Border
Protection, and Kevin McAleenan; return of his property pursuant to Rule 41(g) of the Federal Rules of
Criminal Procedure; and damages under Bivens v. Six
Unknown Named Agents, 403 U.S. 388 (1971), from Defendant Juan Espinoza and other unknown defendants
who are employees of the U.S. Customs and Border
Protection.
Now pending before the Court are: (1) Plaintiff ’s
Motion to Certify Class (ECF No. 4); (2) Motion to Dismiss of Defendants United States of America, United
States Customs and Border Protection, and Kevin
McAleenan (ECF No. 49); and (3) Motion to Dismiss of
Defendant Juan Espinoza (ECF No. 50). Because all
pretrial matters were referred to the undersigned pursuant to 28 U.S.C. § 636, the undersigned hereby issues
this report and recommendation, recommending that
the motion to certify class be denied and the motions
to dismiss be granted.

App. 85
I.

BACKGROUND

On September 21, 2015, Plaintiff Serrano, a resident of Kentucky, drove his 2014 Ford F-250 truck to
the United States-Mexico border through Eagle Pass,
Texas, with the intent of driving to Mexico. Compl. 4,
6, ECF No. 1 at 4, 6. After paying the toll to enter into
Mexico, but while still in the United States, he began
using his cell phone to ﬁlm activity at the border, getting the attention of Customs and Border Protection
(“CBP”) agents on duty. Id. After a tense encounter, the
agents handcuffed Plaintiff and searched his vehicle,
ﬁnding a .380 caliber magazine with ﬁve bullets in it.
Id. at 7-8. The agents detained Plaintiff for several
hours, continuously pressuring him to reveal the
passcode for his phone without success. Id. at 8-10.
They then released him but seized his vehicle and its
contents, including the magazine and the bullets. Id. at
10.
A few days later, Plaintiff received notice in the
mail of the seizure, informing him that the truck, magazine, and bullets were seized and subject to civil forfeiture because there was probable cause to believe
that Plaintiff had attempted to export munitions of
war from the United States.1 Id. at 11; see also Seizure
1

The parties acknowledge that it is proper for the Court to
consider the notice in a motion to dismiss without converting the
motion to one for summary judgment because it was referred to
in the complaint and is central to Plaintiff ’s claims. Collins v.
Morgan Stanley Dean Witter, 224 F.3d 496, 498-99 (5th Cir. 2000)
(“We note, approvingly, however, that various other circuits have
speciﬁcally allowed that ‘[d]ocuments that a defendant attaches
to a motion to dismiss are considered part of the pleadings if they

App. 86
Notice, ECF No. 55-2 at 2.2 He was informed that if he
wished to challenge the seizure, he could request to
have the matter referred to a U.S. attorney for the institution of judicial proceedings, if he posted a bond
equal to ten percent of the value of the seized property.
Id. He could also seek remission of the forfeiture, make
an offer in compromise, or abandon the property. Seizure Notice, ECF No. 55-2 at 3-4.
Plaintiff timely demanded forfeiture proceedings
and posted a ten percent bond in the amount of
$3,804.99. Compl. 11, ECF No. 1 at 11. After some time,
forfeiture proceedings still had not been instituted, so
Plaintiff contacted Defendant Espinoza—a paralegal
with CBP and the point person named in the notice—
four times, asking about the status of his case. Id. Espinoza informed him that his paperwork was in order,
but it would take time to proceed with the forfeiture
action in court because the forfeiture attorneys were
very busy. Id. at 11-12. He said that the case had not
yet been referred to a U.S. attorney and would not be
until an attorney had time to review it. Id. at 12.
are referred to in the plaintiff ’s complaint and are central to her
claim.’”) (quoting Venture Assocs. Corp. v. Zenith Data Sys. Corp.,
987 F.2d 429, 431 (7th Cir. 1993)).
2
The notice cites to 19 U.S.C. § 1595a(d) (merchandise attempted to be exported from the United States contrary to law,
and property used to facilitate the exporting, shall be seized and
forfeited to the United States); 22 U.S.C. § 401 (providing for seizure and forfeiture of illegally exported war materials and vehicles used to attempt to export such articles); 22 U.S.C. § 2778
(control of arms exports and imports); and 22 C.F.R. § 127.1 (violations for illegal exports from the United States).

App. 87
After twenty-three months of waiting, without (1)
the return of his property, (2) a post-seizure hearing, or
(3) the institution of a forfeiture action, Plaintiff ﬁled
the present cause of action against the United States,
seeking return of his property pursuant to Rule 41(g)
of the Criminal Rules of Federal Procedure, based on
violations of the Fourth and Fifth Amendments. He argues that return of his property is proper since he was
not provided with a post-seizure hearing, and because
the United States waited too long to institute forfeiture
proceedings. Id. at 20-21. He also argues that his bond
money must be returned because the requirement to
post a bond as a condition of obtaining a hearing violates due process. Id.
Plaintiff also brings two class action claims pursuant to Rule 23 of the Federal Rules of Civil Procedure,
seeking class-wide injunctive and declaratory relief
under the Fifth Amendment against Defendants
United States of America, U.S. Customs and Border
Protection, and Acting Commissioner McAleenan, in
his ofﬁcial capacity (collectively “Class Defendants”).
Id. at 23. According to Plaintiff, after seizing vehicles,
Class Defendants fail to provide a constitutionally required prompt post-seizure hearing at which a property owner can challenge the legality of the seizure and
the continued retention of the property pending the
forfeiture proceeding, in contravention of Krimstock v.
Kelly, 306 F.3d 40 (2d Cir. 2002). Id. Plaintiff also alleges that Class Defendants violate due process when
they condition the right to a forfeiture hearing on
the posting of a bond. Id. Simultaneously with his

App. 88
complaint, Plaintiff ﬁled a motion to certify the class.
ECF No. 4.
Finally, Plaintiff seeks damages from Defendant
Espinoza and other unknown and unserved agents acting in their individual capacities, pursuant to Bivens v.
Six Unknown Named Agents, 403 U.S. 388 (1971), for
violations of his Fourth and Fifth Amendment rights.
Compl. 21-23, ECF No. 1 at 21-23. Plaintiff argues that
Espinoza deprived him of his constitutional right to a
post-seizure hearing, and other unknown agents violated his rights by maintaining custody of his property
even though no hearing was provided. Id. According to
Plaintiff, while his truck was seized, he had to rent a
vehicle, pay insurance on the truck, and pay title fees,
all while his vehicle sat unused, continuing to depreciate in value.
Shortly after the suit was ﬁled, Plaintiff ’s truck
was returned to him, but not the bond money, magazine, or bullets. ECF No. 49-1. Class Defendants then
ﬁled a motion to dismiss, in which they argue that the
return of Plaintiff ’s truck moots any cause of action
under Rule 41(g). ECF No. 49 at 4-5. Class Defendants
also argue that due process does not require a post-seizure hearing. Id. at 6. In response to the motion for
class certiﬁcation, Class Defendants argue that class
action certiﬁcation is improper because the matter is
now moot, since Plaintiff ’s truck has been returned.
ECF No. 51.
Defendant Espinoza also ﬁled a motion to dismiss
based on two grounds. ECF No. 50. First, he argues

App. 89
that the Supreme Court has never recognized a Bivens
causes of action in the asset forfeiture context, and it
would be improper to extend Bivens to the facts here.
Second, he argues that he is entitled to qualiﬁed immunity because he did not violate any clearly established constitutional right.
Since then, Plaintiff ’s bond money, magazine, and
bullets were returned. See Pl.’s Notice Regarding Return of Bond Money, ECF No. 62; Pl.’s Notice Regarding Return of Seized Prop., ECF No. 63. Plaintiff
acknowledges that the Rule 41(g) motion is now moot.
ECF No. 63 at 1. However, Plaintiff maintains that his
class action claims and his Bivens action are not moot.
Id. at. 2.
II.

ANALYSIS

A. Rule 41(g) Motion for Return of Property
The ﬁrst question is whether Plaintiff ’s Rule 41(g)
motion for return of property should be dismissed. Under Rule 41(g) of the Federal Rules of Criminal Procedure,
A person aggrieved by an unlawful search and
seizure of property or by the deprivation of
property may move for the property’s return.
The motion must be ﬁled in the district where
the property was seized. The court must receive evidence on any factual issue necessary
to decide the motion. If it grants the motion,
the court must return the property to the movant, but may impose reasonable conditions to

App. 90
protect access to the property and its use in
later proceedings.
Fed. R. Crim. P. 41(g). As Plaintiff now concedes, the
matter is moot because all of his property has been returned to him. ECF No. 63 at 1. Accordingly, the claim
should be dismissed for lack of subject matter jurisdiction, pursuant to Rule 12(b)(1).3
B. Class Action Claims Under the Fifth Amendment
The next question is how to resolve Plaintiff ’s
claims brought on behalf of himself and others similarly situated. Plaintiff ’s class action claims are premised upon two arguments. First, Plaintiff argues that
Class Defendants’ failure to provide a prompt post-seizure, pre-forfeiture hearing after every vehicle seizure
violates the Fifth Amendment’s Due Process Clause.
Compl. 23, ECF No. 1 at 23. Second, Plaintiff asserts
that requiring a bond in order to initiate forfeiture proceedings violates due process. Id.
Plaintiff seeks to proceed on behalf of a class of all
U.S. citizens, likely hundreds a year, “whose vehicles
are or will be seized by CBP for civil forfeiture and held
without a post-seizure hearing.” Id. at 17-18. Plaintiff
3

The undersigned notes that because no criminal proceeding
is pending, Rule 41(g) motion is an improper mechanism for seeking the return of seized property. See Bailey v. United States, 508
F.3d 736, 738 (5th Cir. 2007). The Court, however, could have exercised its general equity jurisdiction under 28 U.S.C. § 1331. Id.
Regardless, the matter is now moot.

App. 91
seeks declaratory and injunctive relief, including (1) a
declaration that Class Defendants’ “policy or practice
of failing to provide prompt post-seizure hearings to
U.S. citizens whose vehicles have been seized for civil
forfeiture” is unconstitutional under the Due Process
Clause of the Fifth Amendment, and (2) an injunction
prohibiting Class Defendants “from continuing to seize
vehicles from U. S. citizens for civil forfeiture without
providing a prompt post-seizure hearing.” Id. at 25.
Class Defendants, in turn, have ﬁled (1) a motion
to dismiss these claims (ECF No. 49), and (2) a response in opposition to the motion to certify (ECF No.
51), arguing in both that the claims are moot since
Plaintiff ’s property has been returned. Class Defendants also argue that due process does not require a
post-seizure hearing.
1. Mootness
The Court must ﬁrst determine whether Plaintiff ’s class action claims are moot now that all of his
property (and bond money) has been returned to him.
Article III jurisdiction is contingent upon the presence
of a live case or controversy, or a legally cognizable interest in the outcome. In re Scruggs, 392 F.3d 124, 128
(5th Cir.2004). “If a case has been rendered moot, a federal court has no constitutional authority to resolve
the issues that it presents.” Envtl. Conservation Org. v.
City of Dallas, 529 F.3d 519, 525 (5th Cir.2008). A case
becomes moot when “‘there are no longer adverse parties with sufﬁcient legal interests to maintain the

App. 92
litigation’ or ‘when the parties lack a legally cognizable
interest in the outcome’ of the litigation.” Id. at 527
(quoting In re Scruggs, 392 F.3d at 128).
Plaintiff ’s personal stake in the class claims is
now extinguished, since Plaintiff has received all the
relief that he is entitled from Class Defendants. He has
received all of his property and bond money, and is not
entitled to compensatory damages. See Lane v. Pena,
518 U.S. 187, 192 (1996) (“A waiver of the Federal Government’s sovereign immunity must be unequivocally
expressed in statutory text, and will not be implied.”)
(internal citations omitted). The declaratory judgment
issue is also moot. The question of mootness for declaratory judgments becomes “whether the facts alleged,
under all the circumstances, show that there is a substantial controversy, between parties having adverse
legal interests, of sufﬁcient immediacy and reality to
warrant the issue of a declaratory judgment.” Connell
v. Shoemaker, 555 F.2d 483, 486 (5th Cir. 1977). Plaintiff ’s claims do not meet this test of immediacy, where
his property and bond money have already been returned to him.
This is also not a situation where the claim on the
merits is “capable of repetition, yet evading review,”
creating a mootness exception. See Gerstein v. Pugh,
420 U.S. 103, 110 n.11 (1975).4 Nothing suggests that

4

“When the claim on the merits is ‘capable of repetition, yet
evading review’ the named plaintiff may litigate the class certiﬁcation issue despite loss of his personal stake in the outcome of
the litigation” so long as “the claim may arise again with respect

App. 93
Plaintiff “will likely again prove subject to the [Government’s] seizure procedures” so that Plaintiff should
be allowed to continue with his claims despite a current lack of a personal stake. Alvarez v. Smith, 558 U.S.
87, 93 (2009);5 U.S. Parole Comm’n v. Geraghty, 445
U.S. 388, 398 (1980). The only continuing dispute “is an
abstract dispute about the law, unlikely to affect
[Plaintiff ] any more than it affects other . . . citizens.”
Alvarez, 558 U.S. at 93. “And a dispute solely about the
meaning of a law, abstracted from any concrete actual
or threatened harm, falls outside the scope of the constitutional words ‘Cases’ and ‘Controversies.’” Id.
However, one other possible exception to mootness
might save Plaintiff ’s class action claims—the “inherently transitory” mootness exception, which applies
only to Rule 23 class action claims. United States v.
Sanchez-Gomez, 138 S. Ct. 1532, 1538 (2018) (noting
that a certiﬁed class “acquires a legal status separate
from the interest asserted by the named plaintiff ”) (internal quotations omitted). “The ‘inherently transitory’
rationale was developed to address circumstances in
which the challenged conduct was effectively unreviewable, because no plaintiff possessed a personal
stake in the suit long enough for litigation to run its
course.” Genesis Healthcare Corp. v. Symczyk, 569 U.S.
to that plaintiff.” U.S. Parole Comm’n v. Geraghty, 445 U.S. 388,
398 (1980).
5
Even if the United States were to institute a forfeiture action at this point, he currently has possession of his truck, and
would not lose possession of his truck until at least after a hearing.

App. 94
66, 76 (2013). In such a situation, “certiﬁcation could
potentially ‘relate back’ to the ﬁling of the complaint,”
before the named plaintiff ’s claim became moot, allowing the named plaintiff to proceed on behalf of the
class. Id.
In Zeidman v. McDermott & Co., 651 F.2d 1030,
1050,1051 (5th Cir. Unit A 1981), the Fifth Circuit extended the “inherently transitory” approach even further, holding that “a suit brought as a class action
should not be dismissed for mootness upon tender to
the named plaintiffs of their personal claims” (i.e. picking off a plaintiff ’s claim to effectively “prevent any
plaintiff in the class from procuring a decision on class
certiﬁcation”), at least when “there is pending before
the district court a timely ﬁled and diligently pursued
motion for class certiﬁcation.”6
This is not a classic inherently transitory situation
under Alvarez. The present scenario, however, falls
squarely under Zeidman. Plaintiff ﬁled the motion to
certify class simultaneously with his complaint and
vigorously pursued it. Shortly after, Class Defendants
6

It is clear that had the Court ruled on the motion for certiﬁcation in Plaintiff ’s favor prior to mootness of Plaintiff’s claims,
the class claims would not have been rendered moot. See Sosna v.
Iowa, 419 U.S. 393, 402 (1975) (an Article III case or controversy
“may exist . . . between a named defendant and a member of the
class represented by the named plaintiff, even though the claim
of the named plaintiff has become moot.”). It is also fairly well
settled that had Plaintiff ﬁled the motion for class certiﬁcation
after his claims became moot, then the class claims would have
been rendered moot. See Fontenot v. McCraw, 777 F.3d 741 (5th
Cir. 2015).

App. 95
returned Plaintiff ’s truck, then immediately moved for
dismissal of Plaintiff ’s class action claims based on
mootness. In other words, after a twenty-three month
initial delay of doing nothing, Class Defendants suddenly decided to act promptly once Plaintiff ﬁled suit.
This “picking off ” of Plaintiff ’s claims before the class
action could be certiﬁed makes the claims inherently
transitory under Zeidman.7 8
2. Rule 12(b)(6) or Class Certification
Now that it has been determined that Plaintiff ’s
class claims are not moot, the next question is whether
the Court should ﬁrst address Plaintiff ’s motion for
class certiﬁcation, or Class Defendants’ Rule 12(b)(6)
motion to dismiss for failure to state a claim. Rule 23
of the Federal Rules of Civil Procedure permits class
7

Genesis Healthcare appears to be at odds with Zeidman,
with the Court noting that the “inherently transitory” doctrine
“has invariably focused on the ﬂeeting nature of the challenged
conduct giving rise to the claim, not on the defendant’s litigation
strategy.” 569 U.S. at 76-77. In Fontenot, in fact, the Fifth Circuit
questioned the continued viability of Zeidman, at least for monetary damages cases, noting that the Supreme Court’s rationale in
Genesis Healthcare undermined “Zeidman’s analogy between the
‘inherently transitory’ exception to mootness and the strategic
‘picking off ’ of named plaintiffs’ claims.” 777 F.3d at 750. But until Zeidman has been explicitly overruled by either the Fifth Circuit en banc or the Supreme Court, Zeidman is binding precedent.
Soc’y of Separationists, Inc. v. Herman, 939 F.2d 1207, 1211 (5th
Cir. 1991).
8
For other forfeiture cases allowing a class action claim to
proceed, despite resolution of the named plaintiff ’s claim, see
Krimstock v. Kelly, 306 F.3d 40 (2d Cir. 2002); Washington v. Marion Cty. Prosecutor, 264 F. Supp. 3d 957 (S.D. Ind. 2017).

App. 96
certiﬁcation only if the party seeking certiﬁcation
demonstrates that:
(1) the class is so numerous that joinder of
all members is impracticable;
(2) there are questions of law or fact common to the class;
(3) the claims or defenses of the representative parties are typical of the claims or defense of the class; and
(4) the representative parties will fairly and
adequately protect the interests of the class.
Fed. R. Civ. P. 23(a). Furthermore, certiﬁcation is appropriate only if certain additional criteria laid out in
Rule 23(b) are met.
A motion for class certiﬁcation should be ruled on
at an early practicable time, usually before the resolution of any dispositive motion. Schwarzschild v. Tse, 69
F.3d 293, 295 (9th Cir. 1995); see also Hyman v. First
Union Corp., 982 F. Supp. 8, 11 (D.D.C.1997). “Courts
apply this general rule because ‘a plaintiff who ﬁles a
proposed class action cannot legally bind members of
the proposed class before the class is certiﬁed.’” Hartley
v. Suburban Radiologic Consultants, Ltd., 295 F.R.D.
357, 367–69 (D. Minn. 2013) (quoting Standard Fire
Ins. Co. v. Knowles, 568 U.S. 588, 593 (2013)); see also
Smith v. Bayer Corp., 564 U.S. 299 (2011) (“Neither a
proposed class action nor a rejected class action may
bind nonparties. What does have this effect is a class
action approved under Rule 23.”).

App. 97
However, advisory committee notes for Rule 23 indicate that “[o]ther considerations may affect the timing of the certiﬁcation decision. The party opposing the
class may prefer to win dismissal or summary judgment as to the individual plaintiffs without certiﬁcation and without binding the class that might have
been certiﬁed.” Fed. R. Civ. P. 23(c)(1)(A) advisory committee’s note to 2003 amendment. Thus, a court does
not abuse its discretion in ruling on a dispositive motion before ruling on a motion for class certiﬁcation.
See Toben v. Bridgestone Retail Operations, LLC, 751
F.3d 888, 896 (8th Cir. 2014); Wright v. Schock, 742 F.2d
541, 543-44 (9th Cir.1984); Hartley, 295 F.R.D. at 367–
69; Hyman, 982 F. Supp. at 10–11. This is especially
true where a defendant essentially waives the protections of Rule 23 by seeking a ruling on the merits of
the class action claims prior to certiﬁcation. Curtin v.
United Airlines, Inc., 275 F.3d 88, 92-93 (D.C. Cir.2001)
(reversing the usual order of disposition where rendering an easy decision on an individual claim avoid[s] an
unnecessary and harder decision on the propriety of
certiﬁcation).
The undersigned recommends ruling on the motion to dismiss ﬁrst. Even though it might have been
to their advantage to bind a class of plaintiffs, Class
Defendants essentially waived that right by ﬁling the
present motion to dismiss. Also, because ruling on the
merits is a relatively simple inquiry, while the certiﬁcation process is not, and because the merits of Plaintiff ’s claims inevitably come into play in the
certiﬁcation analysis as well, see Wal-Mart Stores, Inc.

App. 98
v. Dukes, 564 U. S. 338, 350-51 (2011), it would be wise
to begin with the Rule 12(b)(6) motion.
3. Rule 12(b)(6)
The next issue then is whether Plaintiff ’s class
claims should be dismissed under Rule 12(b)(6). Rule
12(b)(6) authorizes the dismissal of a complaint that
“[fails] to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6). A Rule 12(b)(6) motion
to dismiss, however, “is viewed with disfavor and is
rarely granted.” Kaiser Alum. & Chem. Sales, Inc. v.
Avondale Shipyards, Inc., 677 F.2d 1045, 1050 (5th Cir.
1982) (internal quotations omitted). Accordingly, the
complaint must be liberally construed in the plaintiff ’s
favor, all reasonable inferences must be drawn in favor
of the plaintiff ’s claims, and the factual allegations of
the complaint must be taken as true. Campbell v. Wells
Fargo Bank, N.A., 781 F.2d 440, 442 (5th Cir. 1986).
In determining whether a complaint fails to state
a claim, the Court must look to Rule 8 of the Federal
Rules of Civil Procedure, which requires pleadings to
include a “short and plain statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P.
8(a)(2). To comply with Rule 8, a plaintiff must include
enough facts to give a defendant fair notice of the
claims against it. Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007). “To survive a motion to dismiss, a complaint must contain sufﬁcient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on
its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)

App. 99
(quoting Twombly, 550 U.S. at 570). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Id. To meet this standard, “[f ]actual allegations
must be enough to raise a right to relief above the speculative level . . . .” Twombly, 550 U.S. at 555.
a. Applicable Laws
As background, Plaintiff ’s seized truck and property were subject to the customs forfeiture procedures
found at 19 U.S.C. §§ 1602–1619. See 19 U.S.C. § 1600
(“The procedures set forth in sections 1602 through
1619 of this title shall apply to seizures of any property
effected by customs ofﬁcers under any law enforced or
administered by the Customs Service unless such law
speciﬁes different procedures.”); see also 18 U.S.C.
§ 983(i) (exempting offenses under Title 19 from
CAFRA and its provisions). If the value of property is
less than $500,000, the government can seek to use administrative forfeiture procedures after providing
proper notice. See § 1607(a) (describing notice requirements). If no party ﬁles a claim within twenty days, the
property is summarily forfeited to the Government.
§ 1609. However, if a person ﬁles a claim and gives a
bond to the United States in the “penal sum” of ten percent of the value of the claimed property, the customs
ofﬁcer “shall transmit such claim and bond, with a duplicate list and description of the articles seized, to the
United States attorney for the district in which seizure
was made, who shall proceed to a condemnation of the

App. 100
merchandise or other property in the manner prescribed by law.” § 1608. A party may also offer to pay
the value of the seized vehicle for its return (§ 1614),
make an offer in compromise (§ 1617), or seek remission or mitigation of forfeiture (§ 1618).
When action by the United States attorney is required, the customs ofﬁcer must “report promptly” to
the United States attorney and include “a statement of
all the facts and circumstances of the case within his
knowledge, with the names of the witnesses and a citation to the statute or statutes believed to have been
violated, and on which reliance may be had for forfeiture or conviction.” § 1603(b). The Attorney General
must then inquire immediately into the facts of the
case, and if it appears probable that a forfeiture has
occurred, must institute judicial proceedings “without
delay,” unless such proceedings can not probably be
sustained” or “the ends of justice do not require” it.
§ 1604. A designated customs agent shall maintain
custody of the property “to await disposition according
to law.” § 1605.
b. Failure to Provide a Post-seizure Pre-forfeiture Hearing
Plaintiff ﬁrst alleges that the failure of Class Defendants to provide a prompt post-seizure hearing to
contest the initial seizure violates due process. In procedural due process claims, “the deprivation by [governmental] action of a constitutionally protected
interest in ‘life, liberty, or property’ is not in itself

App. 101
unconstitutional; what is unconstitutional is the deprivation of such an interest without due process of law.”
Zinermon v. Burch, 494 U.S. 113, 125 (1990). Due process “requires, at a minimum, that absent a countervailing state interest of overriding signiﬁcance,
persons forced to settle their claims of right and duty
through the judicial process must be given” notice and
a “meaningful opportunity to be heard.” Boddie v. Connecticut, 401 U.S. 371, 377-78 (1971). The proper inquiry to determine whether due process has been
satisﬁed requires a court to ask two questions: (1) what
process the government has provided, and (2) whether
it was constitutionally adequate. Zinermon, 494 U.S. at
126.
As noted above, the customs laws do not provide
for any sort of prompt post-seizure, pre-forfeiture hearing. Nor does CBP provide for a hearing. Instead, a
claimant demanding forfeiture must await referral of
his case by a customs agent to a U.S. attorney for possible institution of forfeiture proceedings. The agent
must “report promptly,” and if forfeiture is warranted,
the U.S. attorney must proceed without “unreasonable
delay.” United States v. $8,850 in U.S. Currency, 461
U.S. 555, 565 (1983). Class Defendants, citing to United
States v. Von Neumann, 474 U.S. 242 (1986), argue that
this is all that due process requires. Plaintiff, citing to
Krimstock v. Kelly, 306 F.3d 40 (2d Cir. 2002), and other

App. 102
similar cases, argues that an additional hearing is required.9
A good starting point in the analysis is Mathews v.
Eldridge, 424 U.S. 319 (1976), which set forth three factors to determine whether an individual has received
the “process” that the Constitution ﬁnds “due”: “First,
the private interest that will be affected by the ofﬁcial
action; second, the risk of an erroneous deprivation of
such interest through the procedures used, and the
probable value, if any, of additional or substitute procedural safeguards; and ﬁnally, the Government’s interest, including the function involved and the ﬁscal
and administrative burdens that the additional or substitute procedural requirement would entail.” 424 U.S.
at 335. By weighing these concerns, courts can determine whether a government has met the “fundamental
requirement of due process,” which is “the opportunity
to be heard ‘at a meaningful time and in a meaningful
manner.’” Id. at 333 (quoting Armstrong v. Manzo, 380
U.S. 545, 552 (1965)).
In United States v. $8,850 in U.S. Currency, 461
U.S. 555 (1983), the Supreme Court looked to whether
an eighteen-month delay in instituting a forfeiture action of money seized pursuant to 31 U.S.C. § 1101 violated due process. Similar to here, the Court looked to
customs laws, which do not provide a speciﬁc time
9

It is well settled that no pre-seizure hearing was required.
See Calero-Toledo v. Pearson Yacht Leasing Co., 416 U.S. 663, 680
(1974) (seizure under similar customs statutes “presents an ‘extraordinary’ situation in which postponement of notice and hearing until after seizure did not deny due process”).

App. 103
frame for forfeiture, only a requirement of reasonableness. The Court then applied the balancing test of
Barker v. Wingo, 407 U.S. 514 (1972)—which also applies to speedy trials—to determine if the eighteenmonth delay violated the claimant’s due process right
to a meaningful forfeiture hearing at a meaningful
time. Barker instructs a court to weigh four factors:
“length of delay, the reason for the delay, the [claimant’s] assertion of his right, and prejudice to the [claimant].” $8,850, 461 U.S. at 564. The Court did not
explicitly discuss whether any additional pre-forfeiture hearing is required to satisfy due process and did
not discuss the Mathews factors.
In Von Neumann, 474 U.S. 242, the Court addressed whether the Constitution requires a prompt
disposition of remission proceedings. The claimant experienced a 36-day delay after he ﬁled a petition for
remission when his car was seized for a customs violation under 19 U.S.C. § 1497. The Court, again without
addressing the Mathews factors, held that “remission
proceedings are not necessary to a forfeiture determination, and therefore are not constitutionally required.
Thus there is no constitutional basis for a claim that
respondent’s interest in the car, or in the money put up
to secure the bond, entitles him to a speedy answer to
his remission petition.” 474 U.S. at 250. Importantly,
the Court addressed $8,850, stating, “Implicit in this
Court’s discussion of timeliness in $8,850 was the view
that the forfeiture proceeding, without more, provides
the postseizure hearing required by due process to protect Von Neumann’s property interest in the car.” Id. at

App. 104
249. The Court also reiterated that “we have already
noted that [a claimant’s] right to a forfeiture proceeding meeting the Barker test satisﬁes any due process
right with respect to the car. Id. at 251.
Despite the clear indication of Von Neumann that
no additional hearing is required to satisfy due process, Plaintiff argues that Krimstock holds otherwise.
In Krimstock, 306 F.3d 40, the Second Circuit addressed a New York forfeiture statute that applied to
DWI arrests. The court held that a post-seizure, preforfeiture hearing was required in order to allow a
claimant to challenge the validity of the seizure. In
reaching a determination that a prompt hearing was
necessary to satisfy due process, the court addressed
the Mathews factors. For the ﬁrst factor, the court
noted that the deprivation of a person’s vehicle “involves substantial due process interests,” thus weighing in favor of the claimant. 306 F.3d at 61. As for the
second factor, the court found that it weighed in favor
of the city, since “the risk of erroneous seizure and retention of a vehicle is reduced in the case of a DWI
owner-arrestee, because a trained police ofﬁcer’s assessment of the owner-driver’s state of intoxication can
typically be expected to be accurate.” Id. at 62-63. However, the court noted that the city’s victory on this point
was narrow, “in light of the comparably greater risk of
error that is posed to innocent owners, the City’s direct
pecuniary interest in the outcome of forfeiture proceedings, and the lack of adequate recompense for losses
occasioned by erroneous seizure of vehicles.” Id. at 64.
For the third factor, the court discounted the city’s

App. 105
reasoning that it has an interest in (1) protecting the
property from “being sold or destroyed before a court
can render judgment in future forfeiture proceedings,”
(2) maintaining custody in order to preserve in rem jurisdiction, and (3) preventing the seized vehicle from
being used as an instrumentality in future DWI acts.
Id. at 64-67.
After balancing the factors, the court found that
the Fourteenth Amendment guarantee that deprivations of property be accomplished only with due process of law demands “that plaintiffs be afforded a
prompt post-seizure, prejudgment hearing before a
neutral judicial or administrative ofﬁcer.” Id. at 67.
Such a hearing would allow a claimant “an early opportunity to test the probable validity of further deprivation, including probable cause for the initial seizure,
and to ask whether other measures, short of continued
impoundment, would satisfy the legitimate interests of
the City in protecting the vehicles from sale or destruction pendente lite.” Id. at 68.
The court also brieﬂy discussed the application of
$8,850 and Von Neumann. Concerning $8,850, the
court held that the balancing test of Barker v. Wingo
did not displace the balancing test of Mathews v. Eldrige, ﬁnding that the Constitution “distinguishes between the need for prompt review of the propriety of
continued government custody, on the one hand, and
delays in rendering ﬁnal judgment, on the other.” Id.
According to the Second Circuit, “[t]he application of
the speedy trial test presumes prior resolution of
any issues involving probable cause to commence

App. 106
proceedings and the government’s custody of the property or persons pendente lite, leaving only the issue of
delay in the proceedings.” Id. As for the applicability of
Von Neumann, the court distinguished the case because (1) the Supreme Court “was addressing the different issue of what process was due in proceedings for
remission or mitigation under U.S. customs laws when
a claimant could challenge the seizure of his or her
property in judicial forfeiture proceedings;” (2) under
federal law, a claimant could ﬁle a motion under Federal Rule of Criminal Procedure 41 for return of seized
property if he believed the initial seizure was improper; and (3) the claimant’s vehicle was released to
him after he posted a bond. Id. at 52 n.12.
With these cases in mind, there is some support to
the idea that a prompt post-seizure hearing is required
when state, municipal, or district statutes allow for seizures for violations of law, especially where seized
property is not subject to replevin. See, e.g., Krimstock,
306 F.3d 40; Smith v. City of Chicago, 524 F.3d 834 (7th
Cir. 2008) (following the reasoning of Krimstock in addressing a Chicago forfeiture statute; however, the decision was vacated and remanded for dismissal by the
Supreme Court because of mootness); Brown v. District
of Columbia, 115 F. Supp. 3d 56 (D.D.C. 2015) (requiring a prompt hearing for automobile seizures but not
cash seizures under D.C. law); Simms v. District of
Columbia, 872 F. Supp. 2d 90 (D.D.C. 2012) (requiring
hearing after automobile seizure under D.C. law).
Plaintiff, however, has not pointed to any case in

App. 107
support of an argument that a hearing is required after a seizure under federal law.10
The only cases the undersigned can ﬁnd that could
theoretically support Plaintiff ’s contention are Lee v.
Thornton, 53 8 F. 2d 27 (2d Cir. 1976), and Pollgreen v.
Morris, 496 F. Supp. 1042, 1051- 54 (S.D. Fla. 1980),
two cases that predate $8,850 and Von Neumann. In
Lee, the court balanced the Mathews factors and held:
[W]hen vehicles are seized for forfeiture or as
security, action on petitions for mitigation or
remission should be required within 24 hours,
with notice of the charge, and with opportunity to ﬁle a written response and to make
an oral appearance and that, if requested,
some kind of hearing on probable cause for the
detention before an ofﬁcer other than the one
making the charge should be provided within
72 hours if the petition is not granted in full.
538 F.2d at 33. Without such procedures, the court held
that the seizures were unlawful and the property must
be returned. Id. Pollgreen, in turn, addressed different
seizure and forfeiture laws, ones that did not impose
any time period for the resolution of an owner’s claims.
496 F. Supp. at 1053.

10

Plaintiff cites to United States v. $23,407.69 in U.S. Currency, 715 F.2d 162 (5th Cir. 1983). But that case simply weighed
the Barker factors laid out in $8,850 in ﬁnding that a “the government must explain and justify substantial delays in seeking forfeiture of seized property.” Id. at 166. It did not hold that a postseizure, pre-forfeiture hearing must be held.

App. 108
Other courts who have addressed the adequacy of
federal law have found that no such hearing is required. For example, in United States v. One 1971
BMW 4-Door Sedan, 652 F. 2d 817, 821 (9th Cir. 1981),
the court looked to the Mathews factors and held no
hearing was required, noting, “The interest of the appellant in the uninterrupted use of his vehicle is not so
compelling as to outweigh the substantial interest of
the government in controlling the narcotics trade without being hampered by costly and substantially redundant administrative burdens.” The court distinguished
Lee based on the fact that “the claimants were afforded
neither the independent evaluation by the United
States Attorney that prosecution was warranted, nor
judicial review to determine whether the forfeiture
was just.” Id. at 820. See also United States v. Aldridge,
81 F.3d 170, at *2 (9th Cir. 1996) (unpublished opinion)
(“Aldridge’s due process right to contest the government’s authority to forfeit the weapons was satisﬁed
by the availability of the administrative claim and remission procedures.”); In re Seizure of Any and All
Funds on Deposit in Wells Fargo Bank, NA, 25 F. Supp.
3d 270, 279-80 (E.D.N.Y. 2014); United States v. All
Funds on Deposit in Dime Sav. Bank, 255 F. Supp. 2d
56, 72 (E.D.N.Y 2003) (ﬁnding Krimstock inapplicable);
Krimstock v. Saﬁr, No. 99 Civ. 12041-MBM, 2000 WL
1702035, at *5 (S.D.N.Y. Nov. 13, 2000) (rev’d on other
grounds) (holding that in light of $8800 and Von Neumann, Lee had been implicitly overruled).
After reviewing existing precedent, the undersigned ﬁnds that no prompt post-seizure hearing is

App. 109
required. Even assuming Von Neumann does not provide a clear answer—which the undersigned ﬁnds that
it does—a weighing of the Mathews factors ﬁrmly supports a ﬁnding that no hearing is required to satisfy
due process. Unquestionably the seizure of a vehicle
implicates an important private interest in being able
to travel and to go to work. See Krimstock, 306 F.3d at
61; Brown, 115 F. Supp. 3d at 66. The government,
however, also has a strong interest in preventing the
exportation of munitions of war and preserving items
capable of escaping the grasps of forfeiture, such as a
truck, which can easily be disposed of or sold.11
The risk of erroneous deprivation is also minimal.
At the border, a person has diminished privacy rights
and is subject to “[r]outine searches of the persons and
effects” without “any requirement of reasonable suspicion, probable cause, or warrant.” United States v. Montoya de Hernandez, 473 U.S. 531, 538 (1985). Thus,
there are minimal Fourth Amendment or probable
cause concerns. And certainly CBP agents are well
trained in identifying customs violations, so their assessment “can typically be expected to be accurate.”
Krimstock, 306 F.3d at 62-63.
11

See Calero-Toledo, 416 U.S. 663, 676-80 (1974) (Seizure
permits the government “to assert in rem jurisdiction over the
property in order to conduct forfeiture proceedings, thereby fostering the public interest in preventing continued illicit use of the
property and in enforcing criminal sanctions. Second, preseizure
notice and hearing might frustrate the interests served by the
statutes since the property seized . . . will often be of a sort that
could be removed to another jurisdiction, destroyed, or concealed,
if advance warning of conﬁscation were given.”)

App. 110
“The risk of an erroneous seizure [is further]
minimized by the duty of the United States Attorney
immediately after notiﬁcation of the seizure to investigate the facts and laws and independently to determine whether initiation of forfeiture proceedings [is]
warranted.” One 1971 BMW, 652 F.2d at 821.12 And
even though the risk of an erroneous seizure is already
minimal, a claimant still has various options available
to seek the return of property, including ﬁling a motion
pursuant to Rule 41(g) (or, if no criminal proceeding is
pending, seeking equitable relief ) to immediately challenge the legality of a seizure.
Finally, the United States government simply does
not have the capability of providing a prompt post-seizure hearing in every case. As Plaintiff notes, personal
property is routinely seized at the border, amounting
to thousands of cases a year. To require an immediate
post-seizure hearing in every case, even if just for vehicle seizures, would strain resources beyond capacity.
Cf. City of Los Angeles v. David, 538 U.S. 715, 716-17
(2003) (considering, for example, the volume of cases,
preparation time, resources, organizing hearings,
the number of courtrooms and presiding ofﬁcials available, arranging the appearance of those involved,
and covering responsibilities while employees make
appearances); see also One 1971 BMW, 652 F.2d at 821
12

Compare Brown, 115 F. Supp. 3d at 66-67 (quoting Simms,
872 F. Supp. 2d at 101-02) (ﬁnding that “there is at least some
risk of erroneous deprivation when a seizure is based on a trafﬁc
stop, which most of the seizures here were. That is so because the
validity of trafﬁc stops ‘rests solely on the arresting ofﬁcer’s unreviewed probable cause determination.’”).

App. 111
(calling such potential hearings “costly and substantially redundant administrative burdens”).
In all, the Mathews factors do not weigh in favor
of requiring a prompt post-seizure, pre-forfeiture hearing to satisfy due process. Because Plaintiff has failed
to state a claim for which relief can be granted, this
claim should be dismissed.
c. Bond Requirement
There is likewise no merit to Plaintiff ’s contention
that requiring the posting of a bond to institute forfeiture procedures violates due process. Plaintiff has not
cited to any cases that support this view, and in fact,
courts have long approved of the constitutionality of
requiring bonds, even in the forfeiture context.13 At
most, case law establishes that due process prohibits
13

See, e.g., Schlib v. Kuebel, 404 U.S. 357 (1971) (holding
that Illinois’s retention of a percentage of the amount of bail, returned to those not convicted and designed to curtail abuses by
bail bondsmen, was an acceptable administrative cost and not violative of due process.); Cohen v. Beneﬁcial Indus. Loan Corp., 337
U.S. 541 (1949) (upholding bond for stockholder cases); Arango v.
Dep’t of the Treasury, 115 F. 3d 922, 929 (11th Cir. 1997) (holding
that the bond requirement in the federal asset forfeiture statute
was designed to promote “more efﬁcient and less costly administrative forfeitures”); Gladden v. Roach, 864 F.2d 1196, 1200 (5th
Cir. 1989) (determining that the payment of a bond as a precondition for release following arrest for a nonjailable offense does
not constitute a due process violation); Brown, 115 F. Supp. 3d at
72 (“The statute’s bond requirement easily survives rational-basis
review because it serves the legitimate purposes of weeding out
frivolous claims and promoting summary administrative proceedings.”).

App. 112
the government from denying access to some courts
based on the inability to pay a court fee. See Boddie v.
Connecticut, 401 U.S. 371 (1971); Arango v. U.S. Dep’t
of the Treasury, 115 F. 3d 922, 929 (11th Cir. 1997);
Wren v. Eide, 542 F.2d 757, 763 (9th Cir. 1976) (holding
that “the ﬁfth amendment prohibits the federal government from denying the opportunity for a hearing to
persons whose property has been seized and is potentially subject to forfeiture solely because of their
inability to post a bond”). Here, though, customs regulations provide claimants an opportunity to proceed
without prepayment of costs, which is all that is necessary to satisfy due process. See 19 C.F.R. § 162.47(e);
Brown, 115 F. Supp. 3d at 71 (noting that indigence “is
not a suspect constitutional classiﬁcation,” and so long
as indigent claimants can obtain a waiver or reduction,
the bond requirement does not burden their fundamental right to challenge the seizure of their property”) (internal citations omitted). Because requiring a
bond under these circumstances is not unconstitutional, Plaintiff has failed to state a claim for which relief can be granted, and this claim should likewise be
dismissed.
C. Motion for Class Certification
The next question is how to resolve Plaintiff ’s Motion for Class Certiﬁcation. ECF No. 4. As previously
discussed, Plaintiff has failed to state a claim on behalf
of the class members. Accordingly, there is nothing to
base class certiﬁcation upon, and the motion should be
dismissed as moot.

App. 113
D. Bivens Claim
The ﬁnal issue is whether Plaintiff ’s Bivens claim
should be dismissed. Plaintiff brings two claims under
Bivens—a Fourth Amendment claim and a Fifth
Amendment claim. First, he argues that Defendant Espinoza violated his Fourth and Fifth Amendment
rights by processing Plaintiff ’s case for civil forfeiture
without providing for any kind of post-seizure judicial
process or instituting forfeiture proceedings. Compl.
15, 21, 22, ECF No. 1 at 15, 21, 22. As for the unknown
defendants, he argues that they are the ones with authority to hold or release the truck and are therefore
responsible for violating his Fourth and Fifth Amendment rights, as they maintained custody of Plaintiff ’s
truck for over twenty-three months without judicial
process. Id. at 15, 21, 22-23. He further alleges that a
reasonable ofﬁcial in the Bivens Defendants’ shoes
would have understood that holding property for
such an unreasonable period of time without a postseizure hearing and without commencing forfeiture
proceedings violates due process and constitutes an
unreasonably prolonged seizure in violation of the
Fourth Amendment. Id. at 15-16, 21.
1. Bivens Framework
A Bivens cause of action is a judicially created
cause of action arising under the Constitution for
money damages against federal ofﬁcials sued in their
individual capacities who have violated the plaintiff ’s
constitutional rights while acting in the course and

App. 114
scope of employment. Corr. Servs. Corp. v. Malesko, 534
U.S. 61, 66 (2001). Qualiﬁed immunity, however,
shields government ofﬁcials from monetary damages
unless the ofﬁcial violated a statutory or constitutional
right that was clearly established at the time of the
challenged conduct. Ashcroft v. al-Kidd, 563 U.S. 731,
735 (2011). If a defendant “properly invokes the defense of qualiﬁed immunity, the plaintiff bears the burden of proving that the defendant is not entitled to the
doctrine’s protection.” Howell v. Town of Ball, 827 F.3d
515, 525 (5th Cir. 2016).
To be clearly established, a right must be sufﬁciently clear “that a reasonable ofﬁcial would understand that what he is doing violates that right.”
Anderson v. Creighton, 483 U.S. 636, 640 (1987). “Because the focus is on whether the ofﬁcer had fair notice
that [his] conduct was unlawful, reasonableness is
judged against the backdrop of the law at the time of
the conduct.” Brosseau v. Haugen, 543 U.S. 194, 198
(2004). Case law need not be exactly on point, but “existing precedent must have placed the statutory or constitutional question beyond debate.” al-Kidd, 563 U. S.
at 741. This means being able “to point to controlling
authority—or a ‘robust consensus of cases of persuasive authority’—that deﬁnes the contours of the right
in question with a high degree of particularity.” Morgan v. Swanson, 659 F.3d 359, 371-72 (5th Cir. 2011)
(quoting al-Kidd, 563 U. S. at 742). “Where no controlling authority speciﬁcally prohibits a defendant’s conduct, and when the federal circuit courts are split on

App. 115
the issue, the law cannot be said to be clearly established.” Id. at 372.
It is also a defense to a cause of action under
Bivens that (1) the alleged constitutional violations extend beyond the types that have been recognized under
Bivens and its progeny, and (2) there are “‘special factors counseling hesitation” of implying a private damages action “in the absence of afﬁrmative action by
Congress.’” Carlson v. Green, 446 U.S. 14, 18 (1980)
(quoting Bivens, 403 U.S. at 396). Generally, a court
should resolve the Bivens application issue ﬁrst before
addressing the constitutional question. Hernandez v.
Mesa, 137 S. Ct. 2003, 2006 (2017). However, “disposing of a Bivens claim by resolving the constitutional
question, while assuming the existence of a Bivens
remedy—is appropriate in many cases,” unless the
question at issue “is sensitive and may have consequences that are far reaching.” Id.14

14

For example, Hernandez raised a sensitive issue with potential far reaching consequences. 137 S. Ct. 2003. The question
was whether the family of a decedent who was killed on Mexican
soil could bring a Bivens cause of action against a Border Patrol
agent who ﬁred shots from the United States. Without deciding
the Bivens question, the Court of Appeals found that the agent
did not violate a clearly established constitutional right. The Supreme Court remanded the case for a determination of the Bivens
question ﬁrst.

App. 116
2. Is Plaintiff ’s Fifth Amendment Claim Cognizable Under Bivens?
Following the standard procedure, the ﬁrst question the Court should address is whether Plaintiff ’s
claims are cognizable under Bivens. A Bivens cause of
action is disfavored. Iqbal, 556 U.S. at 675. Indeed, the
Supreme Court has only recognized a Bivens cause of
action under the Constitution in three contexts: (1)
Fourth Amendment unreasonable searches and seizures; (2) a Fifth Amendment Due Process Clause violation for gender discrimination, see Davis v. Passman,
442 U.S. 228 (1979); and (3) an Eighth Amendment
Cruel and Unusual Punishment claim for failure to
provide adequate medical care, see Carlson v. Green,
446 U.S. 14 (1980). Since Bivens, Passman, and Carlson, the Supreme Court has “adopted a far more cautious course before ﬁnding implied causes of action.”
Ziglar v. Abbasi, 137 S. Ct. 1843, 1855 (2017).15
In determining if Bivens applies, the ﬁrst question
the Court must address is whether Plaintiff ’s Bivens
claims arise in a new context. If the case is different in
a meaningful way from previous Bivens cases decided
by the Supreme Court, then the context is new. Id. at
15

For examples of cases where the Court has refused to recognize an implied cause of action, see, e.g., Wilkie v. Robbins, 551
U.S. 537 (2007) (no Fifth Amendment claim for landowners seeking damages from government ofﬁcials who unconstitutionally interfere with their exercise of property rights); Malesko, 534 U.S.
61 (2001) (no Eighth Amendment-based suit against a private corporation that managed a federal prison); Bush v. Lucas, 462 U.S.
367 (1983) (no First Amendment claim for retaliatory demotion
because of the comprehensive civil service remedies available).

App. 117
1859. “Instead of an amendment-by-amendment ratiﬁcation of Bivens actions, courts must examine each
new context—that is, each new ‘potentially recurring
scenario that has similar legal and factual components.’” De La Paz v. Coy, 786 F. 3d 367, 372 (5th Cir.
2015) (quoting Arar v. Ashcroft, 585 F.3d 559, 572 (2d
Cir. 2009)). The Supreme Court has provided an instructive non-exhaustive list of examples where differences are meaningful enough to make a given context
a new one, including: “the rank of the ofﬁcers involved;
the constitutional right at issue; the generality or speciﬁcity of the ofﬁcial action; the extent of judicial guidance as to how an ofﬁcer should respond to the problem
or emergency to be confronted; the statutory or other
legal mandate under which the ofﬁcer was operating;
the risk of disruptive intrusion by the Judiciary into
the functioning of other branches; or the presence of
potential special factors that previous Bivens cases did
not consider.” Ziglar, 137 S. Ct. at 1860.
If a Bivens claim arises in a new context, a Bivens
remedy “will not be available if there are ‘special factors counseling hesitation in the absence of afﬁrmative
action by Congress.’” Id. at 1857 (quoting Carlson, 446
U.S. at 18). For example, “Bivens remedies may be foreclosed by congressional action where an ‘alternative,
existing process for protecting the interest amounts to
a convincing reason for the Judicial Branch to refrain
from providing a new and freestanding remedy in damages.’” Butts v. Martin, 877 F.3d 571, 587-88 (5th Cir.
2017) (quoting Wilkie v. Robbins, 551 U.S. 537, 550
(2007)).

App. 118
a. Plaintiff ’s Claims Arise in a New Context
1. Fifth Amendment Claim
The undersigned ﬁnds that Plaintiff ’s Fifth
Amendment claim arises in a new context. The Supreme Court has not recognized a Bivens cause of action in the asset forfeiture context under the Fifth
Amendment. In fact, the only explicit recognition of a
Fifth Amendment claim was in Passman, 442 U.S. 228,
which involved gender-based employment discrimination and is wholly dissimilar to the facts here.
Plaintiff, however, argues that cases need not be
identical to prior Bivens cases and cites to Iqbal, 556
U.S. 662, where the Court impliedly recognized a Fifth
Amendment Bivens claim. Iqbal involved allegations
that the defendants subjected a detainee to harsh conditions of conﬁnement, solely on account of his religion,
race, and/or national origin and for no legitimate penological interest, in violation of the Equal Protection
component of the Fifth Amendment Due Process
Clause. Ziglar, however, indicates that similarities to
a prior Bivens case must indeed be signiﬁcant, strongly
indicating that not only must a previously recognized
Bivens case have actually arisen in the asset forfeiture
context, but also have other additional aspects in common. An equal protection claim challenging conditions
of conﬁnement has nothing in common with an asset
forfeiture case, other than the fact that both claims
arise under the Fifth Amendment.16
16

Even assuming Fifth Circuit cases apply to the analysis,
they likewise provide Plaintiff with no help. The Fifth Circuit has

App. 119
Plaintiff also cites to footnote 22 in Passman,
which, in turn, cites favorably to States Marine Lines,
Inc. v. Shultz, 498 F. 2d 1146 (4th Cir. 1974), a Bivens
case legally and factually similar to the one here.17
However, a 1979 Supreme Court footnote citing a circuit opinion not before the Court is dicta and hardly
grounds to conclude that the Supreme Court has recognized a Bivens claim in the same context as here.18

routinely recognized the existence of a Bivens cause of action under similar circumstances to those here, with one signiﬁcant difference—the seized property was missing or destroyed and thus
unreturnable. See United States v. Bacon, 546 F. App’x 496, 499
(5th Cir. 2013) (“Bacon has no remedy available under Rule 41(g)
because the government has already destroyed all of his property.”); Jaramillo-Gonzalez v. United States, 397 F. App’x 978 (5th
Cir. 2010); Bailey v. United States, 508 F.3d 736 (5th Cir. 2007);
Pena v. United States, 157 F.3d 984 (5th Cir. 1998). In other
words, there was no other form of relief for the claimant except
for a Bivens remedy.
This “damages or nothing” approach was the basis of Bivens
and Davis and is sometimes employed by the Fifth Circuit where
a Bivens remedy will be available if it is the only recourse. Plaintiff here though had other options, and indeed recovered his property. Notably, too, the Fifth Circuit has never actually upheld
personal liability in an actual Bivens case or controversy in this
context and has never clariﬁed who a proper defendant might be;
instead, the court merely recognized the existence of a cause of
action and allowed a plaintiff to amend his complaint to add a
Bivens cause of action. It will be interesting to know if the Fifth
Circuit will continue to do so in light of Ziglar.
17
Plaintiff also cites to Seguin v. Eide, 645 F.2d 804 (9th Cir.
1981), another similar Bivens case not cited by the Supreme
Court.
18
Moreover, Shultz is extremely outdated, called into question by Bivens progeny, and likely overruled.

App. 120
Thus, Plaintiff ’s Fifth Amendment claim arises in a
new context.
2. Fourth Amendment
The undersigned likewise ﬁnds that Plaintiff ’s
Fourth Amendment claim arises in a new context. The
Fourth Amendment prohibits “unreasonable searches
and seizures.” U.S. Const. amend. IV. This protection
extends to “seizures conducted for purposes of civil forfeiture.” United States v. James Daniel Good Real
Prop., 510 U.S. 43, 49 (1993). “A ‘seizure’ of property occurs when there is some meaningful interference with
an individual’s possessory interests in that property.”
United States v. Jacobsen, 466 U.S. 109, 113 (1984).
Bivens of course involved a Fourth Amendment violation, and the Supreme Court has continuously recognized Fourth Amendment Bivens actions in various
contexts. Plaintiff, citing to a string of Fourth Amendment Bivens cases, argues that they present a classic
Fourth Amendment pattern similar to the facts here.
See Ashcroft v. al-Kidd, 563 U.S. 731 (2011) (pretextual
detention under the federal material witness statute);
Groh v. Ramirez, 540 U.S. 551 (2004) (search pursuant
to a deficient warrant); Anderson v. Creighton, 483
U.S. 635 (1987) (warrantless search of a home to find
a robbery suspect); United States v. Place, 462 U.S.
696, 710 (1983) (holding that the 90- minute detention
of luggage “went beyond the narrow authority possessed by police to detain briefly luggage reasonably
suspected to contain narcotics.”); see also United States

App. 121
v. Portillo-Aguirre, 311 F.3d 647, 653 (5th Cir. 2002)
(quotations omitted) (holding that the detention of a
bus at an immigration checkpoint for an additional
three to ﬁve minutes to investigate whether the defendant was carrying illegal drugs violated the Fourth
Amendment because the seizure extended past the
“time reasonably necessary to determine the citizenship status of the persons stopped.”).
These cases, however, are meaningfully distinct
from the present case. Again, “[i]nstead of an amendment-by-amendment ratiﬁcation of Bivens actions,
courts must examine each new context – that is, each
new ‘potentially recurring scenario that has similar legal and factual components.’” De La Paz, 786 F. 3d at
372 (quoting Arar, 585 F.3d at 572). And again, none of
the Fourth Amendment cases arise in the asset forfeiture context.
Moreover, all of the cited cases involve an unlawful
seizure of property, or the continued seizure of property once the initial justiﬁcation for the seizure expired, thus implicating the Fourth Amendment. In
contrast, Plaintiff only conclusorily suggests that the
underlying seizure of his property was unlawful.19 And
looking at the facts in the light most favorable to Plaintiff, the initial justiﬁcation for the seizure of Plaintiff ’s
19

He in fact never alleges that seizure was unlawful. Rather,
he contends that if he were provided a hearing, he would have
argued that “CBP lacked a lawful basis to seize his vehicle, that
the vehicle is not subject to forfeiture, and that forfeiture of the
vehicle would violate the Constitution.” Compl. 13, ECF No. 1 at
13.

App. 122
vehicle, magazine, and bullets was indeed valid, and
the justiﬁcation never expired.
The true premise of Plaintiff ’s argument is that
the delay in processing the forfeiture claim made the
forfeiture, not the seizure, unconstitutional. Such allegations establish a potential Fifth Amendment Due
Process Clause violation, not a Fourth Amendment violation. See James Daniel Good, 510 U.S. at 48–49
(“Here the Government seized property not to preserve
evidence of wrongdoing, but to assert ownership and
control over the property itself. Our cases establish
that government action of this consequence must comply with the Due Process Clauses of the Fifth and Fourteenth Amendments.”); see also Brown, 115 F. Supp. 3d
at 63.20 Plaintiff ’s simple reframing of his Fifth
Amendment claim as a Fourth Amendment claim is to
no avail. And because the distinctions here are meaningful enough from prior Supreme Court cases (and
Fifth Circuit cases), Plaintiff ’s Bivens claims arise in a
new context.21

20

The most analogous Fourth Amendment case Plaintiff has
identiﬁed is Brewster v. Beck, 859 F.3d 1194 (9th Cir. 2017), which
involved a seizure pursuant to a community caretaking exception
to the Fourth Amendment, allowing for a 30-day impoundment of
vehicles that “jeopardize public safety and the efﬁcient movement
of vehicular trafﬁc.” Id. at 1196 (quotations omitted). According
to the Ninth Circuit, once an innocent owner came forth to claim
the seized vehicle, continued possession of her vehicle for the full
thirty days violated the Fourth Amendment. However, because
Brewster was issued by another circuit and not the Supreme
Court, it is not relevant to the present Bivens analysis.
21
To clarify, James Daniel Good was not a Bivens case.

App. 123
b. Special Factors Counsel Against Expanding
Bivens
Because Plaintiff ’s claims arise in a new context,
the next question is whether special factors counsel
against expanding Bivens. With this second inquiry, a
court must make “an assessment of its impact on governmental operations systemwide,” including “the
burdens on Government employees who are sued personally, as well as the projected costs and consequences
to the Government itself when the tort and monetary
liability mechanisms of the legal system are used to
bring about the proper formulation and implementation of public policies.” Ziglar, 137 S. Ct. at 1858. “If the
statute does not display an intent to create a private
remedy, then a cause of action does not exist and courts
may not create one, no matter how desirable that
might be as a policy matter, or how compatible with the
statute.” Id. at 1856 (internal quotations omitted).
The undersigned ﬁnds that special factors counsel
against expanding Bivens here. Of great importance
is whether Congress has already implemented procedural protections. Schweiker v. Chilicky, 487 U.S.
412, 423 (1988). “When the design of a Government
program suggests that Congress has provided what it
considers adequate remedial mechanisms for constitutional violations that may occur in the course of its administration, [the Supreme Court has] not created
additional Bivens remedies.” Id. For example, in
Schweiker, the Court refused to recognize a Bivens
cause of action against administrators of the continuing disability review program for due process

App. 124
violations where disabled social security claimants
were wrongfully denied beneﬁts. A person seeking disability beneﬁts can pursue various levels of recourse
after an initial determination of eligibility, including
review by a federal ALJ, a hearing before the Appeals
Council, and judicial review. Id. at 424. And in Bush v.
Lucas, 462 U.S. 367 (1983), the Court refused to recognize an implied cause of action for a First Amendment
claim against a supervisor because there were comprehensive procedural and substantive provisions for civil
service remedies.
The undersigned sees little overall distinction
between the forfeiture system in place here and the review systems in place in Bush and Schweiker. Congress has invoked a comprehensive forfeiture scheme
where an aggrieved party must receive notice and an
opportunity to respond, and can seek remission, mitigation, invoke forfeiture proceedings, or ﬁle a Rule 41
motion for the return of property. Moreover, no statutory provision allows for monetary damages against either the United States or an ofﬁcer in his or her
individual capacity, thus indicating Congress’s reluctance to extend the availability of monetary damages
against individual ofﬁcers. See Schweiker 487 U.S. at
424 (noting how the applicable laws make “no provision for remedies in money damages against ofﬁcials
responsible for unconstitutional conduct that leads to
the wrongful denial of beneﬁts”).
Recognizing a cause of action would also have signiﬁcant consequences on the federal government and
its employees, with potential claims arising from every

App. 125
seizure against CBP agents of all types (including paralegals, attorneys, and agents maintaining custody
over the seized property, just to name a few).22 “‘Congress is in a far better position than a court to evaluate
the impact of a new species of litigation’” that would
arise and “can tailor any remedy to the problem perceived, thus lessening the risk of raising a tide of suits
threatening legitimate initiative on the part of the
Government’s employees.” Wilkie, 551 U.S. at 562
(quoting Bush, 462 U.S. at 389).
Plaintiff, however, complains that the available
seizure and forfeiture remedies are in fact not remedies at all and do not work quickly enough. He also attempts to distinguish his claim, stating, “Whereas the
plaintiffs in Lucas and Chilicky alleged that the government had violated the relevant statute, Gerardo alleges that the government followed the relevant
statutes but that the statutes themselves violate the
Constitution . . . An administrative scheme that itself
violates the Constitution cannot possibly provide an
‘alternative’ remedy for that violation.” Pl.’s Resp.
22

Notably, in Rankin v. United States, 556 F. App’x 305 (5th
Cir. 2014), under a similar statutory scheme under the Civil Asset
Forfeiture Reform Act of 2000 (“CAFRA”), 18 U.S.C. § 983, the
Fifth Circuit refused to recognize a Bivens cause of action for forfeiture violations, noting, “Because CAFRA provides a comprehensive scheme for protecting property interests, no Bivens claim
is available.” Id. at 311. In reaching its conclusion, the Fifth Circuit simply cited Bush and Schweiker. Id. No doubt CAFRA has a
more comprehensive system in place than customs laws, but Rankin reﬂects the strong signiﬁcance placed on the existence of a
comprehensive statutory scheme, even where unrecompensed
damages are inevitable.

App. 126
10-11, ECF No. 56 at 16-17. But this argument pertains to Plaintiff ’s claim regarding the failure to provide him with a post-seizure hearing, not his claim
about delays in the forfeiture process. As previously
discussed, there is nothing unconstitutional about the
forfeiture scheme itself, on its face or as applied by
CBP.
Although it is unfortunate when a statutory
scheme fails, resulting in not insigniﬁcant damages
(rental car, depreciation, insurance, etc...), the proper
inquiry here is whether Congress intended for individual liability, not whether the statutory scheme is actually successful. See, e.g., Schweiker, 487 U.S. at 428-29
(incomplete relief for damages and hardships suffered
because of delays of no consequence); Spagnola v.
Mathis, 859 F. 2d 233, 227 (D.C. Cir. 1988) (noting that
“the Chilicky Court made clear that it is the comprehensiveness of the statutory scheme involved, not the
‘adequacy’ of speciﬁc remedies extended thereunder,
that counsels judicial abstention”); Gaspard v. United
States, 713 F.2d 1097, 1105 (5th Cir. 1983) (“It is the
existence of the [statutory scheme], and not payment in
fact, that lessens the justiﬁcation for a Bivens remedy.”).
Plaintiff ’s argument would also foreclose Bivens
relief in general. In arguing that Defendants were
simply following an unconstitutional scheme, he is
merely reframing his class action claims as Bivens
ones, without suggesting that Espinoza’s or any other
unnamed defendant individual’s acts were otherwise
unconstitutional. Congress “and not the individual

App. 127
defendants are responsible for creating the remedial
scheme,” and a plaintiff “cannot avoid dismissal by recasting [his] constitutional claims against the agency
as a Bivens action.” Knaust v. Digesualdo, 589 F. App’x
698, 701 (5th Cir. 2014).
III.

CONCLUSION

In sum, all of Plaintiff ’s property has been returned to him; the customs/forfeiture statutes are not
unconstitutional on their face or as applied by CBP
when Defendants do not provide a prompt post-seizure
hearing; the customs/forfeiture statutes are not unconstitutional for requiring a bond; Plaintiff ’s motion for
class action certiﬁcation is moot; and Plaintiff has
failed to state a cognizable Bivens cause of action. Although insufﬁcient facts are before the Court, it certainly appears plausible that Plaintiff ’s due process
rights were violated when it took over two years to return his property. Compare United States v. $23,407.69
in U.S. Currency, 715 F.2d 162 (5th Cir. 1983) (13
month delay unreasonable, thus precluding forfeiture).
But see $8,850, 461 U.S. 555 (eighteen-month delay
not unreasonable under the circumstances). Notwithstanding, Plaintiff ’s only redress was getting his property and bond money back.
Because Plaintiff now has all the relief to which he
is entitled, the undersigned recommends that:
1. Plaintiff ’s motion for class certiﬁcation (ECF
No. 4) be DENIED AS MOOT.

App. 128
2. The motion to dismiss by Defendants United
States Customs and Border Protection, United States
of America, and Kevin McAleenan (ECF No. 49) be
GRANTED, the Rule 41(g) motion DISMISSED AS
MOOT, and the class claims against them DISMISSED WITH PREJUDICE to reﬁling by Plaintiff,
but without prejudice as to any other potential plaintiffs.
3. Defendant Espinoza’s motions to dismiss
(ECF No. 50) be GRANTED and the claims against
him DISMISSED WITH PREJUDICE.
Finally, the undersigned recommends that the
claims against the unknown defendants be DISMISSED WITHOUT PREJUDICE. Assuming Plaintiff could identify any of the unknown defendants at a
later time, amendment of the complaint pursuant to
Rule 15(a)(2) of the Federal Rules of Civil Procedure to
name the speciﬁc agents would be futile, since a Bivens
claim against them would have no merit.23 Courts,
however, lack personal jurisdiction over unidentiﬁed
ﬁctitious defendants. See Cunningham v. Advanta
Corp., 2009 WL 10704752, at *3 (N.D. Tex. Feb. 6,
2009); Taylor v. Fed. Home Loan Bank Bd., 661 F. Supp.
1341, 1350 (N.D. Tex. 1986). Therefore, the claims
should be dismissed without prejudice, pursuant to
23

Leave to amend should be allowed unless there is “undue
delay, bad faith or dilatory motive on the part of the movant, repeated failure to cure deﬁciencies by amendments previously allowed, undue prejudice to the opposing party by virtue of
allowance of the amendment, futility of amendment, etc.” Foman
v. Davis, 371 U.S. 178, 182 (1962).

App. 129
Federal Rule of Civil Procedure 12(b)(2). See Int’l Energy Ventures Mgmt., L.L.C. v. United Energy Grp.,
Ltd., 818 F.3d 193, 213 (5th Cir. 2016) (dismissal for
lack of personal jurisdiction must be without prejudice).
IV.

NOTICE

The United States District Clerk shall serve a
copy of this report and recommendation on all parties
either by (1) electronic transmittal to all parties represented by an attorney registered as a ﬁling user with
the Clerk of Court pursuant to the Court’s Procedural
Rules for Electronic Filing in Civil and Criminal Cases;
or (2) certiﬁed mail, return receipt requested, to any
party not represented by an attorney registered as a
ﬁling user. Pursuant to 28 U.S.C. § 636(b)(1), any party
who wishes to object to this report and recommendation may do so within fourteen days after being served
with a copy. Failure to ﬁle written objections to the
ﬁndings and recommendations contained in this report
shall bar an aggrieved party from receiving a de novo
review by the District Court of the ﬁndings and
recommendations contained herein, see 28 U.S.C.
§ 636(b)(1)(c), and shall bar an aggrieved party from
appealing “the unobjected-to proposed factual ﬁndings
and legal conclusions accepted by the District Court”

App. 130
except on grounds of plain error. Douglass v. United
Servs. Auto. Ass’n, 79 F.3d 1415, 1429 (5th Cir. 1996).
SIGNED and ENTERED on July 23, 2018.
/s/ Collis White
COLLIS WHITE
UNITED STATES
MAGISTRATE JUDGE

App. 131
[SEAL]

U.S. Customs & Border Protection
P.O. Box 3130
Laredo, Texas 78044-3130

NOTICE OF SEIZURE AND
INFORMATION TO CLAIMANTS
NON-CAFRA FORM
CERTIFIED – RETURN RECEIPT REQUESTED:
70131710000177142442
October 1, 2015
Gerardo Cesar Cerna
[Address Redacted]
Tyner, Kentucky 40486
Re: Case Number 2015230300013601
Dear Sir/Madam:
This is to notify you that U.S. Customs and Border Protection (OFO) seized the property described below at
Eagle Pass, TX on 9/21/2015:
Quantity UOM

DESCRIPTION

Appraised
Value

1

BG

.380 Caliber
Ammunition (EA 5)

$2.00

1

BG

SIG Sauer .380
Magazine Auto (EA 1)

$39.99

1

EA

2014 Ford – F-250 –
$38,000.00
VIN: 1FT7W2BT8EEB
05962

App. 132
The property was seized and is subject to forfeiture
under the provisions of 19USC1595a(d), 22USC401,
22USC2778 & 22CFRPart127.1, because any arms or
munitions of war or other articles known or where
probable cause exist to believe that the arms or munitions of war or any vessel, vehicle or aircraft or other
articles, are intended to be or are being or have been
exported or removed from the US in violation of law
are subject to be seizure.
The facts available to CBP indicate that you might
have an interest in the seized property. The purpose of
this letter is to advise you of the options available to
you concerning this seizure. An important document –
an “Election of Proceedings” form is enclosed with this
letter. You must choose one of the options outlined below, indicate your choice on the “Election of Proceedings” form, and return it and any other necessary
documents to CBP within the allotted time frame.
Should you choose to abandon the property, you must
still complete the “Election of Proceedings” form and
return it to CBP.
Your options are as follows:
1.

Petition: You may ﬁle a petition with this ofﬁce
within 30 days from the date of this letter in accordance with Title 19, United States Code
(U.S.C.), Section 1618 (19 U.S.C. §1618) and Title
19, Code of Federal Regulations (C.F.R.), Sections
171.1 and 171.2 (19 C.F.R. §§ 171.1, 171.2), seeking remission of the forfeiture. The petition does
not need to be in any speciﬁc form, but it must describe the property involved, identify the date and

App. 133
place of the seizure, include all the facts and circumstances which you believe warrant relief from
forfeiture, and must include proof of your interest
in or claim to the property. Examples of proof of
interest include, but are not limited to a car title,
loan agreement, or documentation of the source of
funds. If you choose this option, you must check
Box 1 on the “Election of Proceedings” form.
By completing Box 1 on the “Election of Proceedings” form, you are requesting administrative processing of your case by CBP. You are requesting
that CBP refrain from beginning forfeiture proceedings while your petition is pending or that
CBP halt administrative forfeiture proceedings, if
they have already commenced. However, if CBP
has already referred the matter to the U.S. Attorney’s Ofﬁce for the institution of judicial forfeiture
proceedings, your petition will be forwarded to the
U.S. Attorney for consideration.
If you are dissatisﬁed with the petition decision
(initial petition or supplemental petition), you will
have an additional 60 days from the date of the
initial petition decision, or 60 days from the date
of the supplemental petition decision, or such
other time as speciﬁed by the Fines, Penalties and
Forfeitures Ofﬁcer to ﬁle a claim to the property,
along with the required cost bond, requesting referral of the matter to the U.S. Attorney’s Ofﬁce for
judicial action. If you do not act within these time
frames, CBP may forfeit the property to the
United States as authorized by law.
At any point prior to the forfeiture of the property,
you may request a referral to the U.S. Attorney by

App. 134
ﬁling a claim and cost bond. Please see section 4 of
this letter for information on how to ﬁle a claim
and cost bond. If you take such action after ﬁling
a petition for relief, your pending petition will be
withdrawn from consideration.
2.

Offer in Compromise: At any time prior to forfeiture, you may ﬁle an offer in compromise in accordance with Title 19, U.S.C., Section 1617 (19
U.S.C. § 1617) and Title 19, C.F.R., Sections 161.5
and 171.31 (19 C.F.R. §§ 161.5, 171.31). The offer
must speciﬁcally state that you are making it under the provisions of 19 U.S.C. § 1617. If you are
offering money in settlement of the case, you must
include payment (bank draft, cashier’s check or
certiﬁed check, drawn on a U.S. ﬁnancial institution, and made payable to CBP) in the amount of
your offer. CBP may only consider the amount of
your offer and will return the full offer if it is rejected. This option may serve to delay the case. If
you choose this option, you must check Box 2 on
the “Election of Proceedings” form.
If you chose to submit an offer in compromise and
are dissatisﬁed with the offer decision, you will
have an additional 30 days from the date of the
offer decision to ﬁle a claim and bond requesting a
referral for judicial action. If you do not act within
the additional 30 days, the property may be forfeited to the United States.
You may also request a referral for judicial action
at any point prior to the issuance of the offer in
compromise decision. (Please see section 4 of this
letter for information on how to ﬁle a claim and

App. 135
cost bond.) If you take such action, your petition or
offer will he considered to have been withdrawn.
If, upon receipt of your offer, the matter has already been referred to the U.S. Attorney for the institution of judicial forfeiture proceedings, your
over will be forwarded to the United States Attorney for consideration as an offer of settlement in
the judicial case, as appropriate.
3.

Abandon: You may abandon the property or state
that you have no claim or interest in it. If you
choose this option, you should check Box 3 on the
“Election of Proceedings” form. The Government
may proceed with forfeiture proceedings or address claims from other parties concerning the
property, without further involving you.

4.

Court Action: You may request to have this matter referred to the U.S. Attorney for institution of
judicial forfeiture proceedings by notifying the ofﬁce identiﬁed in this letter, in writing, that you do
not intend to ﬁle a petition or offer in compromise
with CBP or post the value of the merchandise to
obtain its release on payment (see below). If you
choose this option, you should check Box 4 on the
“Election of Proceedings” form.
If you chose this option, you must submit to CBP
(at the address provided at the end of this letter)
a claim and cost bond in the penal sum of $5,000
or 10 percent of the value of the claimed property,
whichever is less, but in no case shall the amount
of the bond be less than $250.00.
If you ﬁle the claim and bond, the case will be referred promptly to the appropriate U.S. Attorney

App. 136
for the institution of judicial proceedings in Federal court to forfeit the seized property in accordance with 19 U.S.C. § 1608 and 19 C.F.R. § 162.47.
You may then ﬁle a petition for relief with the Department of Justice pursuant to Title 28, Code of
Federal Register, Part 9 (28 C.F.R. Pt. 9). Failure
to submit a bond with the claim will render the
request for judicial proceedings incomplete, and
therefore, defective. This means that the case will
NOT be referred to the appropriate U.S. Attorney.
If you wish the Government to seek judicial forfeiture proceedings but cannot afford to post the
bond, you should contact the Fines, Penalties &
Forfeitures Ofﬁcer or Asset Forfeiture Ofﬁcer of
CBP (where applicable) so that CBP can make a
determination of your ﬁnancial ability to pay the
bond. If a determination of inability to pay is
made, the cost of the bond may be waived in its
entirety. The case will be referred promptly and
you may then ﬁle a petition for relief with the Department of Justice pursuant to 28 C.F.R. Pt. 9.
Take No Action: If you choose to do nothing, CBP may
seek to forfeit the property. In order to obtain forfeiture, CBP must publish a notice of seizure and intent
to forfeit for 30 consecutive days, and after that time
the Government acquires full title to the seized property. The ﬁrst notice will be posted on or about 30 days
from the date of this letter.
For property appraised in excess of $5,000, CBP
will post notice of seizure and intent to forfeit on
the Internet at www.forfeiture.gov for 30 consecutive days.

App. 137
For property appraised at $5000 or less, CBP
will post notice of seizure and intent to forfeit
in a conspicuous place accessible to the public
at the customhouse or Border Patrol sector ofﬁce (where appropriate) nearest the place of
seizure as well as on the internet at www.
forfeiture.gov for 30 consecutive days.
Release on Payment: If the seized merchandise is
not, by law, prohibited from entry into the commerce of
the United States, you may, within 30 days of this letter, submit an offer to pay the full appraised domestic
value of the seized property accompanied by the full
payment (bank draft, cashier’s check or certiﬁed check,
drawn on a U.S. ﬁnancial institution, and made payable to CBP) or an irrevocable letter of credit in accordance with 19 U.S.C. § 1614 and 19 C.F.R. § 162.44.
If CBP accepts your offer to substitute release of the
seized property on payment, the property will be immediately released, and the payment or letter of credit
will be substituted for the seized property. You may
still submit a petition, offer in compromise, or ﬁle a
claim and cost bond requesting that the matter be referred to the U.S. Attorney’s Ofﬁce, and you must check
the appropriate box on the “Election of Proceedings”
form. The decision letter on your offer will provide you
with the time frames for those options. If, upon receipt
of your offer, the matter has already been referred to
the U.S. Attorney’s Ofﬁce for the institution of judicial
forfeiture proceedings, your offer will be forwarded to
the U.S. Attorney for consideration.

App. 138
Holder of a Lien or Security Interest: If you are a
holder of a lien or security interest and you do not ﬁle
a request for court action (option 4 above), you may
avail yourself of any of the other options listed. No relief will be granted to you until after forfeiture, unless
your petition, offer or request is accompanied by an
agreement to hold the United States, its ofﬁcers and
employees harmless, and a release from the registered
owner and/or person from whom the property was
seized.
All accompanying documents, including supporting
documents, must be in the English language or accompanied by an English language translation and submitted in duplicate.
No matter which box you check on the enclosed “Election of Proceedings” form, you should sign, date and return the form, along with any petition, offer in
compromise, or request for judicial forfeiture proceedings if those documents are necessary to support the
option you choose. If you did not receive this form,
please call the telephone number below.
In addition to the seizure and forfeiture liability, you
may be liable for a civil penalty in this matter. If you
are liable for a civil penalty, details on the civil penalty
are in the attached letter; or, if not attached, are being
prepared and will be mailed shortly.
All correspondence should be addressed to U.S. Customs and Border Protection, P.O. Box 3130. Should further information be required, contact Juan Espinoza at
Fines, Penalties and Forfeitures Ofﬁce, Lincoln Juarez

App. 139
Bridge – Building II at [Phone Number Redacted]. Inquiries should reference the case number.
Sincerely,
/s/ [Illegible]
Liza Lopez
Fines, Penalties and Forfeitures Ofﬁcer
Enclosures: Election of Proceedings – Non-CAFRA
Form
A FALSE STATEMENT OR CLAIM MAY SUBJECT
A PERSON TO PROSECUTION UNDER TITLE 18,
U.S.C., SECTION 1001 AND/OR 1621, AND MAY BE
PUNISHABLE BY A FINE AND IMPRISONMENT

App. 140
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
Constitution of the United States
Amendment V.
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property be taken for public use, without just compensation.

19 U.S.C. § 1603
Seizure; warrants and reports
(a) Any property which is subject to forfeiture to
the United States for violation of the customs laws
and which is not subject to search and seizure in accordance with the provisions of section 1595 of this
title, may be seized by the appropriate officer or person upon process issued in the same manner as provided for a search warrant under the Federal Rules
of Criminal Procedure. This authority is in addition
to any seizure authority otherwise provided by law.

App. 141
(b) Whenever a seizure of merchandise for violation of the customs laws is made, or a violation of the
customs laws is discovered, and legal proceedings by
the United States attorney in connection with such
seizure or discovery are required, it shall be the duty
of the appropriate customs officer to report promptly
such seizure or violation to the United States attorney for the district in which such violation has occurred, or in which such seizure was made, and to
include in such report a statement of all the facts and
circumstances of the case within his knowledge, with
the names of the witnesses and a citation to the statute or statutes believed to have been violated, and on
which reliance may be had for forfeiture or conviction.

19 U.S.C. § 1604
Seizure; prosecution
It shall be the duty of the Attorney General of the
United States immediately to inquire into the facts of
cases reported to him by customs ofﬁcers and the laws
applicable thereto, and if it appears probable that any
ﬁne, penalty, or forfeiture has been incurred by reason
of such violation, for the recovery of which the institution of proceedings in the United States district court
or the Court of International Trade is necessary, forthwith to cause the proper proceedings to be commenced
and prosecuted, without delay, for the recovery of such
ﬁne, penalty, or forfeiture in such case provided, unless,

App. 142
upon inquiry and examination, the Attorney General
decides that such proceedings can not probably be sustained or that the ends of public justice do not require
that they should be instituted or prosecuted, in which
case he shall report the facts to the Secretary of the
Treasury for his direction in the premises.

19 U.S.C. § 1607
Seizure; value $500,000 or less, prohibited
articles, transporting conveyances
(a)

Notice of seizure

If –
(1) the value of such seized vessel, vehicle, aircraft, merchandise, or baggage does not exceed
$500,000;
(2) such seized merchandise is merchandise the
importation of which is prohibited;
(3) such seized vessel, vehicle, or aircraft was
used to import, export, transport, or store any controlled substance or listed chemical; or
(4) such seized merchandise is any monetary instrument within the meaning of section 5312(a)(3)
of Title 31;
the appropriate customs ofﬁcer shall cause a notice of
the seizure of such articles and the intention to forfeit
and sell or otherwise dispose of the same according to
law to be published for at least three successive weeks
in such manner as the Secretary of the Treasury may

App. 143
direct. Written notice of seizure together with information on the applicable procedures shall be sent to
each party who appears to have an interest in the
seized article.
(b) “Controlled substance” and “listed chemical” deﬁned
As used in this section, the terms “controlled substance” and “listed chemical” have the meaning given
such terms in section 802 of Title 21.
(c)

Report to Congress

The Commissioner of U.S. Customs and Border Protection shall submit to the Congress, by no later than February 1 of each ﬁscal year, a report on the total dollar
value of uncontested seizures of monetary instruments
having a value of over $100,000 which, or the proceeds
of which, have not been deposited into the Customs
Forfeiture Fund under section 1613b of this title
within 120 days of seizure, as of the end of the previous
ﬁscal year.

19 U.S.C. § 1608
Seizure; claims; judicial condemnation
Any person claiming such vessel, vehicle, aircraft, merchandise, or baggage may at any time within twenty
days from the date of the ﬁrst publication of the notice
of seizure ﬁle with the appropriate customs ofﬁcer a
claim stating his interest therein. Upon the ﬁling of

App. 144
such claim, and the giving of a bond to the United
States in the penal sum of $5,000 or 10 percent of the
value of the claimed property, whichever is lower, but
not less than $250, with sureties to be approved by
such customs ofﬁcer, conditioned that in case of condemnation of the articles so claimed the obligor shall
pay all the costs and expenses of the proceedings to obtain such condemnation, such customs ofﬁcer shall
transmit such claim and bond, with a duplicate list and
description of the articles seized, to the United States
attorney for the district in which seizure was made,
who shall proceed to a condemnation of the merchandise or other property in the manner prescribed by law.

19 U.S.C. § 1609
Seizure; summary forfeiture and sale
(A)

In general

If no such claim is ﬁled or bond given within the twenty
days hereinbefore speciﬁed, the appropriate customs
ofﬁcer shall declare the vessel, vehicle, aircraft, merchandise, or baggage forfeited, and shall sell the same
at public auction in the same manner as merchandise
abandoned to the United States is sold or otherwise
dispose of the same according to law, and shall deposit
the proceeds of sale, after deducting the expenses described in section 1613 of this title, into the Customs
Forfeiture Fund.

App. 145
(b)

Effect

A declaration of forfeiture under this section shall have
the same force and effect as a ﬁnal decree and order of
forfeiture in a judicial forfeiture proceeding in a district court of the United States. Title shall be deemed
to vest in the United States free and clear of any liens
or encumbrances (except for ﬁrst preferred ship mortgages pursuant to subsection O of section 30 of the
Ship Mortgage Act, 1920 (46 U.S.C. App. 961) or any
corresponding revision, consolidation, and enactment
of such subsection in Title 46) from the date of the act
for which the forfeiture was incurred. Ofﬁcials of the
various States, insular possessions, territories, and
commonwealths of the United States shall, upon application of the appropriate customs ofﬁcer accompanied
by a certiﬁed copy of the declaration of forfeiture, remove any recorded liens or encumbrances which apply
to such property and issue or reissue the necessary certiﬁcates of title, registration certiﬁcates, or similar documents to the United States or to any transferee of the
United States.

19 U.S.C. § 1610
Seizure; judicial forfeiture proceedings
If any vessel, vehicle, aircraft, merchandise, or baggage
is not subject to section 1607 of this title, the appropriate customs ofﬁcer shall transmit a report of the case,
with the names of available witnesses, to the United
States attorney for the district in which the seizure

App. 146
was made for the institution of the proper proceedings
for the condemnation of such property.

19 U.S.C. § 1618
Remission or mitigation of penalties
Whenever any person interested in any vessel, vehicle,
aircraft, merchandise, or baggage seized under the provisions of this chapter, or who has incurred, or is alleged to have incurred, any ﬁne or penalty thereunder,
ﬁles with the Secretary of the Treasury if under the
customs laws, and with the Commandant of the Coast
Guard or the Commissioner of U.S. Customs and Border Protection, as the case may be, if under the navigation laws, before the sale of such vessel, vehicle,
aircraft, merchandise, or baggage a petition for the
remission or mitigation of such ﬁne, penalty, or forfeiture, the Secretary of the Treasury, the Commandant
of the Coast Guard, or the Commissioner of U.S. Customs and Border Protection, if he ﬁnds that such ﬁne,
penalty, or forfeiture was incurred without willful negligence or without any intention on the part of the petitioner to defraud the revenue or to violate the law, or
ﬁnds the existence of such mitigating circumstances as
to justify the remission or mitigation of such ﬁne, penalty, or forfeiture, may remit or mitigate the same upon
such terms and conditions as he deems reasonable and
just, or order discontinuance of any prosecution relating thereto. In order to enable him to ascertain the
facts, the Secretary of the Treasury may issue a commission to any customs ofﬁcer to take testimony upon

App. 147
such petition: Provided, That nothing in this section
shall be construed to deprive any person of an award
of compensation made before the ﬁling of such petition.

